<html>
<title> - THE SITUATION IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 114-601]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-601

                      THE SITUATION IN AFGHANISTAN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 4, 2016

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







        Available via the World Wide Web: http://www.fdsys.gov/




                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-956 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman      JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma             BILL NELSON, Florida
JEFF SESSIONS, Alabama                CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi          JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire           JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                 KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                  RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota             JOE DONNELLY, Indiana
JONI ERNST, Iowa                      MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina           TIM KAINE, Virginia
DAN SULLIVAN, Alaska                  ANGUS S. KING, JR., Maine
MIKE LEE, Utah                         MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                     
                     Christian D. Brose, Staff Director
                      Elizabeth L. King, Minority Staff 
                                    Director

                                  (ii)

  












                         C O N T E N T S

________________________________________________________________________

                            February 4, 2016

                                                                   Page

The Situation in Afghanistan.....................................     1

Campbell, General John F., USA; Commander, Resolute Support;          4
  Commander, United States Forces-Afghanistan.

Questions for the Record.........................................    44

                                 (iii)

 
                      THE SITUATION IN AFGHANISTAN

                              ----------                              


                       THURSDAY, FEBRUARY 4, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
Room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman) presiding.
    Committee members present: Senators McCain, Ayotte, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Lee, Graham, 
Reed, McCaskill, Manchin, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. The Senate Armed 
Services Committee meets this morning to receive testimony on 
the situation in Afghanistan.
    I'm pleased to welcome General John Campbell before this 
committee one more time.
    General, this committee is grateful to you for your many 
years of distinguished service and your leadership of the 
United States and allied forces in Afghanistan at a critical 
time. We know the many sacrifices you and your family have 
made. We are proud of the work you have done. We hope to 
benefit from your abilities and experience after your service 
in the Army is complete. You have a great deal still to offer 
our Nation and its security.
    General Campbell, you have presided over important progress 
in improving the capability and capacity of the Afghan 
military. You've developed a strong and productive relationship 
with the Afghan Unity Government. When you saw that our hard-
won gains were in danger, you spoke up for what was right, that 
further troop withdrawals should be based on conditions on the 
ground. Your successor will profit greatly from your leadership 
and your record of service.
    In 2001, United States forces went to Afghanistan because 
that was where, under the sanctuary of the Taliban regime, al 
Qaeda planned and trained for the September 11th attacks that 
killed 3,000 innocent civilians on American soil. Our mission 
was to ensure that Afghanistan would never again be a safe 
haven for al Qaeda or other terrorist groups to attack the 
United States or our allies and partners. That mission has been 
successful for 14 years, but it's far from over. United States 
forces are carrying out the mission today by performing two 
critical tasks: counterterrorism and training, advising, and 
assisting our Afghan partners. Both of these tasks are vital to 
achieving our strategic goals and protecting our Homeland. 
We're taking the fight to America's enemies in Afghanistan 
while at the same time building a--sustainable Afghan Security 
Forces that can stand on its own, take on violent extremists, 
and deny terrorists safe haven in their country.
    I fear that the latest calendar-based withdrawal plan 
places these missions, and therefore our Nation's security, at 
risk. While President Obama made the right decision to keep 
9,800 United States troops in Afghanistan, he repeated again 
the strategic folly of setting a timetable for withdrawal that 
ignores conditions on the ground, discourages our friends, and 
gives hope to our enemies. I continue to be disheartened by the 
perpetual political focus on troop numbers. This decision 
should be, first, about what capabilities we need to protect 
our national security and, second, about the number of troops 
it takes to enable those capabilities. The 5,500 United States 
troops that will be left in Afghanistan if this plan goes 
forward be--will not be adequate--will be adequate for either 
the counterterrorism mission or the train, advise, and consent 
mission, but not both. This smaller American force will 
inevitably be forced to shoulder a higher level of risk to 
themselves, to their mission, and to the national security of 
the United States.
    The risk to American forces only grows worse as the 
terrorist threat in Afghanistan intensifies. The Taliban, al 
Qaeda, and the Haqqani Network continue to threaten our 
interests in Afghanistan and beyond. Now ISIL has arrived on 
the battlefield, raising the specter of yet another ISIL safe 
haven from which it can plan and execute attacks. This complex 
and expanding terrorist threat is a test both for us as well as 
the Afghan military, which must still develop key enabling 
capabilities, including intelligence, logistics, special 
forces, airlift, and close air support.
    In short, as General Campbell said in his prepared 
statement, ``Afghan has not achieved an enduring level of 
security and stability that justifies a reduction of our 
support in 2016.'' As a result, the conditions on the ground 
simply do not warrant a further withdrawal of U.S. forces. By 
now, we should have learned, from the precipitous withdrawal 
from Iraq and the disaster that ensued, that wars do not end 
just because politicians say so.
    Many of us are also increasingly concerned that our rules 
of engagement, as dictated by the authorities the President 
gives to our commanders on the ground, are making our mission 
more difficult and increasing the risk to our troops. For 
example, it is stunning that, up until just a few weeks ago, we 
had to wait for ISIL to attack or threaten our forces in 
Afghanistan before taking action. General Campbell has talked 
about the importance of making the fight against violent 
extremists like al Qaeda and ISIL an away game. I fear that 
restrictive authorities dictated by a White House overly 
involved in battlefield tactical decision is inviting a home 
game, as we saw in Paris and San Bernardino.
    To secure Afghanistan and prevent another attack on our 
Homeland requires the right capabilities in the right places, 
supported by the right number of people with the right 
authorities. It's time to give our commanders the resources and 
authorities they need to seize the initiative and force the 
enemy to react instead of the other way around.
    The world walked away from Afghanistan once before, and it 
descended into chaos that contributed to the worst terrorist 
attack ever against our Homeland. We cannot afford to repeat 
that mistake, because the threats we face are real and the 
stakes are high for the lives of the Afghan people, for the 
stability of the region, and for the national security of the 
United States. President Obama has the opportunity to make 
decisions now that will empower his successor to do what is 
necessary to confront the challenges we will face in 
Afghanistan in 2017 and beyond. I hope he will seize that 
opportunity.
    General Campbell, after your 18 months on the ground in 
Afghanistan, almost 37 years of distinguished service in the 
Army, this committee looks forward to hearing what you believe 
the United States, our coalition partners, and our Afghan 
friends need to do differently to put 2016 on a better course 
than 2015.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me join you in welcoming General Campbell and thanking 
him and saluting him for his extraordinary service to the 
Nation and to the Army. I--for the past 18 months, you have led 
with distinction in Afghanistan. You've seen a significant 
transition during that period of time. Your leadership has been 
critical to the successes we've seen there and to the situation 
we now enjoy.
    I look forward to continuing our relationship, but I know 
you're contemplating retirement, and I want to thank you for 
your service, and also thank your family, who has served so 
well and so faithfully with you. So, thank you very much, sir.
    I--President Obama announced, on October 15th, 2015, that 
U.S. troop levels will remain at 9,800 personnel for most of 
2016, but with a planned reduction to 5,500 personnel by 
January 1st, 2017. Our forces, in conjunction with NATO and 
other allies, continue to have two missions: train, assist, and 
advise the Afghan National Security Forces, or ANSF, and 
conduct counterterrorism operations. Key to enabling both 
missions, the President also announced in October that our 
troops would remain at a small number of bases, including 
Bagram, Jalalabad in the east, and Kandahar in the south, 
rather than falling back to a Kabul-centric footprint. This 
adequately staffed and geographically dispersed approach has 
allowed us to support our missions in Afghanistan and encourage 
political and governmental reforms by President Ghani and Chief 
Executive Officer Abdullah. It is also signals to our allies of 
our resolve and the need for their continued commitment.
    The ANSF recently completed their first calendar year 
bearing sole responsibility for the security of Afghanistan, 
albeit with significant enabling support from the coalition. 
The past year presented the ANSF with an array of challenges, 
but they maintained their overall operational coherence, 
despite a notable shift in Taliban operations from seasonal 
fighting to a continuously sustained effort. In addition, the 
emergence of the Islamic State in the Khorasan Province, or 
ISKP, and the continuing and, indeed, increased threat of al 
Qaeda elements within Afghanistan. General Campbell, I look 
forward to your assessment of the performance of the ANSF over 
the past year, and plans for addressing remaining capability 
shortfalls.
    Given the dynamic security environment in Afghanistan, it 
is important that we continually evaluate the assumptions 
underlying our force posture in Afghanistan. As Lieutenant 
General Nicholson stated last week: If confirmed, he intends to 
take the first few months of this command to assess what 
capabilities and associated number of troops he believes we 
will need to remain in Afghanistan in order to successfully 
carry out the train-advise-and-assist and counterterror 
missions. I believe that additional troop withdrawals in 
Afghanistan should be conditions-based, and that any 
recommendations resulting from Lieutenant General Nicholson's 
assessment should be given extraordinary weight.
    General Campbell, I hope you will share with the committee 
your views on the number of the troops and pace of withdrawal 
you would recommend for 2016, and whether events of the past 
year have illuminated ways in which we can better enable 
security operations by the Afghans.
    Lastly, as we look forward to the 2016 NATO Warsaw Summit 
in July, it will be important for the National Unity 
Government, led by President Ghani and Chief Executive Officer 
Abdullah, to demonstrate progress on anticorruption and other 
governance initiatives to give the international community 
confidence that its assistance is being effectively utilized. 
Continued international support is going to be very important 
over the next few years.
    General Campbell, I would also welcome your assessment of 
progress on these issues and how your command is assisting the 
Afghans in providing accountability for support provided to the 
Afghan Security Forces Fund and other sources.
    2016 is going to be a critical year of transition for 
Afghanistan, and decisions by the United States and our 
coalition partners over the next few months could significantly 
impact the trajectory of the country. I believe steady, 
predictable U.S. presence and assistance is necessary for 
continued success.
    General Campbell, again, thank you for your service.
    Thank you, sir.
    Chairman McCain. General Campbell, welcome.

STATEMENT OF GENERAL JOHN F. CAMPBELL, USA; COMMANDER, RESOLUTE 
      SUPPORT; COMMANDER, UNITED STATES FORCES-AFGHANISTAN

    General Campbell. Good morning, Chairman McCain, Ranking 
Member Reed, and other distinguished members of the committee. 
Thank you for the opportunity to appear before you today while 
representing all the servicemen and -women of the United States 
Forces-Afghanistan. I've been honored to lead and represent all 
of them and what they do, here, for the last 18 months. It's 
truly been a privilege and an honor to do so.
    I'd like to begin by thanking the committee again for your 
steadfast support our soldiers, sailors, airmans, and marines, 
and our civilians. Due to your leadership and commitment, they 
continue to be the best trained and equipped force that our 
Nation has ever deployed. The remarkable performance bears true 
testimony to your backing and the backing of the American 
people.
    I'd also like to recognize the unsung heroes of our Nation, 
and that is our military families. They've stood by us for 14 
to 15 years of conflict. They endure the hardships of frequent 
absences, and they allow us to focus on our mission. Without 
their love and support, we could not succeed. So, we thank them 
for their continued support.
    Finally, I'd like to acknowledge and honor the over 2200 
servicemen and -women who have died in Afghanistan since 2001, 
and the over 20,000 who have been wounded. Tragically, we 
recently lost six U.S. airmen to a motorcycle-borne IED attack 
just before Christmas and a Special Forces advisor just after 
the New Year. These losses remind us that Afghanistan continues 
to be a very dangerous place. While we take every measure to 
reduce force-protection threats, our servicemembers, our 
civilians, and our coalition partners remain in harm's way. We 
also remember the fallen of the Afghan Security Forces and the 
loved ones that they've left behind. They now bear the brunt of 
this conflict as they fight to bring peace and security to 
Afghanistan. Every day, we honor their memories by assisting 
our Afghan partners as they fight to improve security and, by 
extension, help us protect our own Homeland.
    The men and women I serve with have not forgotten why we 
are in Afghanistan, and we remain there to ensure that another 
terrorist attack originating from Afghanistan and directed at 
the--against the United States Homeland will never, ever happen 
again. That is why the counterterrorism mission remains 
critical to our mutual security interests. Yet, we recognize 
the importance of our train-advise-and-assist mission as we 
build a sustainable Afghan Security Force capable of standing 
alone in its mission of countering violent extremists and 
denying terrorists safe haven. This is a shared vital interest 
among Afghanistan, United States, and the international 
community. Those who serve in this mission understand that 
Afghanistan is worth our investment. It is their commitment 
that keeps us focused on our vision for a stable and secure 
Afghanistan. Together, the train-advise-and-assist efforts, 
coupled with our counterterrorism mission, underpin our overall 
mission.
    Just 4 months have passed since I last appeared before this 
committee. Even in that short time, there have been many 
developments in the security situation, the progress of the 
Afghan Government and its security forces, our coalition's 
commitments, and, of course, the U.S. way ahead in 2016 and 
beyond. Today, I will speak to these developments and answer 
questions you may have on the state of our efforts and the 
overall situation in Afghanistan. Specifically, I'd like to 
address the lessons we learned from this last year, how we 
intend to ensure that 2016 is different from 2015, and how we 
see 2017 and beyond.
    To assess these questions, we must ask ourselves, What else 
can we do to enable the Afghan Security Forces, and what else 
can the Afghans do for themselves to secure their country? 2015 
was fundamentally different than previous years of our 
campaign. It is important to remember this in context as we 
assess our efforts in Afghanistan:
    First, Afghanistan's Government and security forces have 
managed multiple transitions in 2015.
    Second, the U.S. and coalition mission and force structure 
have significantly changed.
    Third, changing regional dynamics, including evolving 
threats, have presented both challenges and opportunities for 
our success.
    As I travel around Afghanistan, I recognize the changes and 
the progress made over the years of this mission. This is my 
third deployment to Afghanistan over the last 14 years, and I 
have served as senior commander for the last 18 months. I am 
ever mindful of how far we've come, but I remain clear-eyed 
about the challenges that lie ahead.
    Now more than ever, the United States should not waiver on 
Afghanistan. The crucial investment we are making provides 
dividends that achieve our strategic goals, secure our 
Homeland, and position us well in a region--a region that's 
been a source of terrorism and instability for decades.
    Many of you have heard me say that for every bad-news story 
we hear coming out of Afghanistan, there are ten good-news 
stories we don't. While this is to be expected, I think it 
tints our view of our progress and prospects for success in 
Afghanistan. It is my intent to provide a balanced assessment 
that not only exposes the challenges that lie ahead, but also 
illustrates our gains in the Afghan progress.
    With that in mind, I would like to address the concerns 
over what many feel is an overall declining security situation 
in Afghanistan. The situation is more dynamic than a simple 
yes-or-no answer--that a simple yes-or-no answer would 
adequately address. In fact, as of last week, the units we have 
on the ground throughout the country report that, of the 407 
district centers, eight of them, or 2 percent, are under 
insurgent control. We assess that another 18, or 4 percent, are 
under what we call ``insurgent influence.'' Often, these 
district centers are in remote and sparsely populated areas 
that security forces are not able to access very often in 
force. Additionally, at any given time, there may be up to 94 
district centers, around 23 percent, that we view as at risk.
    These figures make two clear points. Number one, that 
approximately 70 percent of the inhabited parts of Afghanistan 
are either under government influence or government control. 
Two, the importance of prioritizing Afghan resources to ensure 
key district centers do not fall into insurgent influence or 
control.
    Over the last 8 years, the Afghan Security Forces have made 
advancements, beginning as an unorganized collection of militia 
and developing into a modern security force with many of the 
systems and processes of an advanced military. They have proven 
resilient and continue to make significant strides in only the 
second year in which Afghan forces assumed the lead for 
security throughout Afghanistan.
    They have demonstrated the ability to successfully conduct 
effective large-scale multi-pillar clearing operations across 
the country, including in Helmand, Ghazni, and Nangarhar. 
Following insurgent offenses, the Afghan Security Forces were 
able to retake key territory, as they did in Kunduz, with 
strong performances from all the security pillars. 
Simultaneously, while the tactical units were conducting these 
operations, the security institutions had to continue 
developing the force. This includes many complex tasks, such as 
budgeting, force generation, personnel management, national-
level maintenance, logistics, and procurement. These are areas 
that challenge even the most advanced militaries in the world. 
I like to say what we have accomplished there is akin to 
building an airplane while in flight. While these systems are 
far from perfect, the foundation has been laid, and we continue 
to advise and assist the Afghans as they build a sustainable 
security force that is enduring and capable of standing on its 
own.
    With the Afghans in the lead for security for the first 
time in 2015, the enemy and the naysayers predicted collapse of 
the Afghan Security Forces and the Afghan Government. They 
sought to capitalize on this. Instead, the Afghan Security 
Forces fought for the very survival of their country, and held 
firm. They did not fracture, and they kept the insurgents from 
achieving their strategic goals while inflicting higher 
casualties on the enemies. They did this while maintaining a 
significantly higher operational tempo with significantly 
reduced coalition support.
    However, the lessons learned in 2015 underscore the Afghan 
shortfalls will persist beyond 2016. Capability gaps still 
exist in the fixed and rotary wing aviation, combined arms 
operations, intelligence collection, dissemination, and 
maintenance. More prominently, one of the greatest tactical 
challenges for the Afghan Security Forces has been the over---
has been overcoming the Afghan air force's extremely limited 
organic close-air support capability. Admittedly, we began 
building the Afghan air force late and were constrained by the 
time it takes to build human capital.
    Those capability gaps notwithstanding, I still assess that 
at least 70 percent of the problems facing Afghan Security 
Forces result from poor leadership. Minister of Defense 
Stanekzai recognizes this. To date, Afghan National Army has 
replaced 92 general officers, including the 215th Corps 
commander in Helmand. The MOI is lagging behind in making 
leadership changes, but we're taking steps to remedy this 
through our train-advise-and-assist mission. This kind of 
change takes time.
    I have seen that the consequences of Kunduz and Helmand 
still weigh heavily on the leadership of both the security 
forces and the Afghan Government. They realize that, although 
not strategically significant in the pure military sense, those 
incidents shaped media coverage and undermine the confidence in 
the Government. Their desire to do better runs deep and is 
genuine. In many ways, these events forced a greater sense of 
urgency to make the changes they greatly require.
    Over the last year, there have been many positive trends. 
However, Afghan Security Forces have not consolidated 
significant gains of their own, nor defeated the insurgency 
across Afghanistan. Suffice it to say, the performance this 
year was uneven. To be fair, this was not unexpected, given the 
overall conditions.
    Ultimately, Afghanistan has not achieved an enduring level 
of security and stability that justifies a reduction in our 
support in 2016. That is why the President's decision to 
maintain current force levels through most of 2016 was welcome 
and important. This decision set the example for NATO, 
encouraging other allies and partner nations to maintain or, in 
some cases, increase their contributions to the Resolute 
Support Mission.
    During this winter lull, we are focusing on steps that best 
prepare the Afghan Security Forces for the summer campaign of 
2016. Their leadership shares this focus, and they are 
dedicated to resetting the force, implementing reforms to 
improve training, equipping, and rebuilding of units that have 
endured unusually high operational tempo for long periods of 
time, especially those forces in Helmand. Such reforms are 
critical and are taking root with the Afghan Security Forces, 
but broader reforms remain important to success in Afghanistan.
    The Afghan Government, including its security institutions, 
continues to show progress in battling corruption and achieving 
other reforms, such as gender integration. However, much work 
still needs to be done. We fully understand that many want to 
see more progress on social and human rights issues before 
continuing to commit resources to Afghanistan. The National 
Unity Government also recognizes this and has welcomed our 
increased use of conditionality to usher change. They 
understand the importance of stability, opportunity, and hope. 
They understand the importance that keeping the donor nations 
engaged, and they understand that hope inspires people to stay 
in Afghanistan instead of seeking opportunity elsewhere.
    Afghanistan is at an inflection point, and I believe if we 
do not make deliberate, measured adjustments, 2016 is at risk 
of being no better, and possibly worse, than 2015. To place 
this into context, I would like to emphasize the uniqueness of 
2015 and some dynamics I think we should soberly consider as we 
assess our way forward.
    The enemy has also changed this year. Unlike previous year, 
the Taliban extended the fighting season and has continued to 
conduct operations in Helmand, as called for by the Taliban 
leadership. Even so, the Taliban recognized that they have no 
lasting gains to consolidate from last year and can afford to 
cede--and cannot afford to cede the limited ground they do 
hold. They are also coming out of the year that saw fracturing 
of their organization, competition from other insurgent groups, 
resulting in loss of legitimacy and high casualty rates, 
probably their highest casualty rates in years.
    As I meet with Afghan soldiers and police, I remind them 
that the Taliban are not 10 feet tall and bulletproof. They 
face significant challenges, and they can be defeated. The fact 
is often forgotten in prominent media reports. The brief 
notoriety that the Taliban gained in Kunduz and Helmand is 
still overshadowed by the significant cost of those efforts, 
compounded by the loss of credibility and unity as the enemy 
infighting continues.
    The Taliban's public narrative in Afghanistan is waning, 
too. It is not lost on the people of Afghanistan that the 
Taliban are killing Afghans, security forces and innocent 
civilians alike. Recent public information campaigns have also 
been more forceful, stressing to the public that, ``The Taliban 
have no plan for the development of Afghanistan. The Taliban 
are here to kill you. The Taliban are against women. The 
Taliban are against education. The Taliban are against progress 
for the nation of Afghanistan.'' As these messages resonate, 
the government must show that it is the only viable option for 
Afghanistan. At the city, district, provincial, and national 
levels, the people of Afghanistan see that the return of the 
Taliban represents a return to brutality, criminality, and 
oppression.
    The operating environment is also evolving for the Taliban 
due to the emergence of other insurgent groups and terrorist 
groups. One such group is Daesh in Afghanistan or the Islamic 
State Khorasan Province, ISKP. Daesh continues to conduct 
brutal attacks against civilians, and directly competes with 
the Taliban for resources to establish a foothold in the 
country. They have focused their efforts on establishing a 
presence in Nangahar and recruiting in other areas. We recently 
gained the authority to strike Daesh. Since then, we have had 
considerable success in degrading their capabilities. The 
rejection of Daesh by local elders who are working with the 
Afghan Security Forces has also slowed the enemy's progress. 
The strikes have been effective in mitigating their growth. We 
must maintain constant pressure on Daesh and dedicate 
intelligence resources to prevent strategic surprise.
    The Taliban has had to adjust to this year's strategy in 
order to counter the emergence of Daesh and the other insurgent 
groups. This dynamic has served as a distraction to the 
Taliban, requiring them to shift precious resources from 
fighting the Afghan Security Forces to countering opposition 
groups. More than just consuming resources, the infighting and 
resultant inability to maintain cohesion has also severely 
damaged the credibility of the Taliban's core narrative of 
being a strong, united organization.
    Groups aligned with the Taliban, such as al Qaeda and the 
Haqqani Network, continue to threaten our national security 
interests. Al-Qaeda has been significantly weakened, but, as 
evidenced by a recent discovery in an al Qaeda camp on 
Afghanistan's southern border, they are certainly not extinct. 
Haqqani Network remains the most capable threat to the United 
States and coalition forces, planning and executing the most 
violent high-profile attacks in Kabul. These are certainly not 
residual threats that would allow for a peaceful transition 
across Afghanistan. Instead, they are persistent threats that 
are adapting to changing operational environment. Ultimately, 
the threats Afghanistan faces require our sustained attention 
and forward presence.
    Reconciliation is a path needed to obtain a negotiated 
settlement and end the conflict in Afghanistan. Current 
reconciliation efforts are an Afghan-led, Afghan-owned 
initiative. Recently renewed quadrilateral meeting in mid-
January included Afghanistan, Pakistan, United States, and 
China.
    It's been over a year since the formation of the National 
Unity Government. It has faced institutional and political 
difficulties, yet can lay claim to some meaningful reform and 
progress during its first year. The Unity Government may be 
fragile, but it is holding, despite being challenged, and it's 
making continuous progress and building momentum to create an 
increasingly viable future.
    Politically, Afghanistan is postured for both progress and 
continued strategic partnership with the United States. We have 
a strong and willing partner--partners in President Ghani and 
Chief Executive Abdullah, and this has not always been the 
case.
    So, as I said at the beginning of this statement, we now 
ask ourselves, What else can we do to enable the Afghan 
Security Forces, and what else can the Afghans do for 
themselves to secure their country? A strategic stalemate 
without end is not the goal of this campaign, nor is it true to 
the reason we came here over 14 years ago. In fact, recently 
submitted NATO strategic assessment makes recommendations for 
adjustments to the current NATO Op Plan that, in my best 
military advice, will help push the campaign past this 
inflection point and increase the prospect of achieving our 
shared goals. Measures that NATO is considering include 
advisory adjustments to give commanders more flexibility on the 
ground and shifting from a yearly outlook to a 5-year vision to 
give all donor nations, and especially Afghanistan, the 
confidence that comes with predictability of support.
    The United States must continue to show flexibility with 
our mission in 2016 and beyond. As the commander, I am 
responsible for aligning our national objectives with ways and 
means while managing risk. Now that we have been allocated our 
resources for 2016, I'm assessing the ways in which we assure 
that 2016 is not a rerun of 2015. Based on conditions and the 
performance of the Afghan Security Forces during this winter 
lull, I am also reviewing how well those forces will likely 
perform in 2017 and the U.S. and coalition resources required 
for their continued development. This is all part of a broader 
process in which my assessment is only one part. I will provide 
my assessments of our strategy to my military leadership as 
well as my successor, Mick Nicholson.
    I think it is important to remember that this time last 
year, our plan was to transition to 1,000 troops, Kabul-centric 
footprint. Due to conditions on the ground, the President made 
the decision to extend 9,800 through most of 2016 and increased 
our posture to 5,500 in 2017. This decision proved flexibility 
to make adjustments and represents the kind of conditions-based 
approach that is so important for our mission in Afghanistan.
    Key to this long-term success in the region is the 
resiliency of the Afghan Government and its security 
institutions and the ability to serve as a regional partner in 
our combined efforts to counter violent extremism. It's 
important to remember that the National Unity Government 
welcomes our assistance. They are a dependable and steadfast 
counterterrorism partner in South Asia.
    2017 marks a significant change in our approach as we focus 
our efforts to capitalize on the gains of the past decade and 
build the capacity of the Afghan security institutions. We now 
have a window of opportunity to increase our likelihood of 
achieving strategic success. Of course, our support should not 
be seen as open-ended, and I believe our approach is sound. 
This year, we applied greater conditionality to the Afghans in 
managing the resources we give them. We're also developing a 5-
year vision out to 2020 to help better define what we are 
trying to accomplish and avoid a year-to-year mentality. I 
believe that by changing our and the Afghan's mindset from a 
cyclic fighting-season-to-fighting-season view to a genuine 
long-term outlook that best reflects our commitment, we need to 
provide the Afghans the time and space for them to continue to 
build their resiliency. Through their spirit and fortitude, 
they have proven worthy of our continued support. The actions 
we take now, combined with their resolve to improve, will, over 
time, develop a sustainable force capable of securing the 
nation and, in turn, help us secure ours.
    Lieutenant General Mick Nicholson is a good friend of mine. 
He appeared before this committee last week. I'd urge you to 
confirm him. He is the best-qualified candidate. If I had to 
pick one man, I would pick Mick Nicholson to replace me. He 
will do great in Afghanistan.
    Thank you again for your steadfast support of our campaign. 
I look forward to your questions.
    [The prepared statement of General Campbell follows:]

             Prepared Statement by General John F. Campbell
    <bullet>  Good morning Chairman McCain, Ranking Member Reed, and 
other distinguished members of this committee. Thank you for the 
opportunity to appear before you today while representing the 
servicemen and women of United States Forces-Afghanistan. I've been 
honored to lead and represent them and all that they do for nearly 18 
months. It has truly been a privilege to do so.
    <bullet>  I'd like to begin by thanking this committee for your 
steadfast support of our Soldiers, Sailors, Airmen, Marines, and 
civilians. Due to your leadership and commitment, they continue to be 
the best trained and equipped force our nation has ever deployed. Their 
remarkable performance bears testimony to your backing, and the backing 
of the American people.
    <bullet>  I'd also like to recognize the unsung heroes of our 
nation: our military families. They have stood by us for the last 14 
years of conflict. They endure the hardships of our frequent absences, 
and allow us to focus on our mission. Without their love and support, 
we couldn't succeed. We thank them for their continued support.
    <bullet>  Finally, I'd like to acknowledge and honor the over 2,200 
servicemen and women who have died in Afghanistan since 2001, and the 
over 20,000 who've been wounded. Tragically, we recently lost six US 
Airmen to a motorcycle-borne IED attack just before Christmas, and a 
Special Forces advisor just after the New Year. These losses remind us 
that Afghanistan remains a dangerous place, and while we take every 
measure to reduce force protection threats, our service members, 
civilians, and coalition partners remain in harm's way.
    <bullet>  We also remember the fallen of the Afghan security forces 
and the loved ones they've left behind. They now bear the brunt of this 
conflict as they fight to bring peace and security to Afghanistan. 
Every day, we honor their memories by assisting our Afghan partners as 
they fight to improve security, and by extension help us to protect our 
own Homeland.
    <bullet>  The men and women I serve with have not forgotten why we 
are in Afghanistan. We remain there to ensure that another terrorist 
attack--originating from Afghanistan and directed against the United 
States Homeland--will never happen again. That is why the 
counterterrorism mission remains critical to our mutual security 
interests. Yet we recognize the importance of our train, advise, and 
assist mission as we build a sustainable Afghan security force capable 
of standing alone in its mission of countering violent extremism and 
denying terrorist safe-haven. This is a shared vital interest among 
Afghanistan, the United States, and the international community. Those 
who serve in this mission understand that Afghanistan is worth our 
investment. It is their commitment that keeps us focused on our vision 
for a stable and secure Afghanistan. Together, the train, advise, 
assist efforts coupled with our counterterrorism mission underpin our 
overall mission.
    <bullet>  Just four months have passed since I last appeared before 
this committee. Even in that short time, there have been many 
developments in the security situation, the progress of the Afghan 
Government and its security forces, our coalition's commitments, and of 
course, the US way ahead in 2016 and beyond. Today, I will speak to 
these developments and answer questions you may have on the state of 
our efforts and the overall situation in Afghanistan.
    <bullet>  Specifically, I'd like to address the lessons we learned 
from last year, how we intend to ensure that 2016 is different from 
2015, and how we see 2017 and beyond. To assess these questions, we 
must ask ourselves: ``what else can we do to enable the Afghan Security 
Forces?'' ``What else can the Afghans do for themselves to secure their 
country?''
    <bullet>  2015 was fundamentally different than previous years of 
our campaign. It is important to remember this context as we assess our 
efforts in Afghanistan. First, Afghanistan's Government and security 
forces have managed multiple transitions in 2015. Second, the US and 
coalition mission and force structure have significantly changed. 
Third, changing regional dynamics, including evolving threats, have 
presented both challenges and opportunities for our success.
    <bullet>  As I travel around Afghanistan, I recognize the changes 
and the progress made over the years of this mission. This is my third 
deployment to Afghanistan over the span of the last 14 years, and I 
have served as the senior commander there for the last 18 months. I am 
ever mindful of how far we've come, but remain clear-eyed about the 
challenges that lie ahead. Now more than ever, the United States should 
not waiver on Afghanistan. The crucial investment we are making 
provides dividends that achieve our strategic goals, secure our 
Homeland, and position us well in the region--a region that has been a 
source of terrorism and instability for decades.
    <bullet>  Many of you have heard me say that for every bad news 
story we hear coming out of Afghanistan, there are ten good news 
stories we don't. While this is to be expected, I think it tints the 
view of our progress and prospects for success in Afghanistan. It is my 
intent to provide a balanced assessment that not only exposes the 
challenges that lie ahead, but also illustrates our gains and Afghan 
progress.
    <bullet>  With that in mind, I would like to address the concerns 
over what many feel is an overall declining security situation in 
Afghanistan. The situation is more dynamic than a simple yes or no 
answer would adequately address. In fact, as of last week, the units we 
have on the ground throughout the country report that of the 407 
district centers, 8 (or 2%) are under insurgent control. We assess that 
another 18 (or 4%) are under what we call insurgent influence. Often, 
these district centers are in remote and sparsely populated areas that 
security forces are not able to access very often in force. 
Additionally, at any given time there may be up to 94 district centers 
(around 23%) that we view as ``at risk.'' These figures make two clear 
points: 1) that approximately 70% of the inhabited parts of Afghanistan 
are either under government influence or government control; and 2) the 
importance of prioritizing Afghan resources to ensure key district 
centers do not fall into insurgent influence or control.
    <bullet>  Over the last eight years the Afghan security forces have 
made advancements, beginning as an unorganized collection of militia 
and developing into a modern security force with many of the systems 
and processes of an advanced military. They have proven resilient and 
continued to make significant strides in only the second year in which 
Afghan forces assumed the lead for security throughout Afghanistan. 
They have demonstrated the ability to successfully conduct effective, 
large-scale, multi-pillar clearing operations across the country, 
including in Helmand, Ghazni, and Nangarhar. Following insurgent 
offensives, the Afghan security forces were able to re-take key 
territory--as they did in Kunduz--with strong performances from all 
security pillars.
    <bullet>  Simultaneously, while the tactical units were conducting 
these operations, the security institutions had to continue developing 
the force. This includes many complex tasks such as budgeting, force 
generation, personnel management, and national level maintenance, 
logistics and procurement. These are areas that challenge even the most 
advanced militaries in the world. I like to say that what we have 
accomplished here is akin to ``building an airplane while in flight.'' 
While these systems are far from perfect, the foundation has been laid 
and we continue to advise and assist the Afghans as they build a 
sustainable security force that is enduring and capable of standing on 
its own.
    <bullet>  With Afghans in the lead for security for the first time 
in 2015, the enemy and the naysayers predicted the collapse of the 
Afghan security forces and the Afghan Government. They sought to 
capitalize on it. Instead, the Afghan security forces fought for the 
very survival of their country and held firm, they did not fracture, 
and kept the insurgents from achieving their strategic goals, while 
inflicting higher casualties on the enemy. They did this while 
maintaining a significantly higher operational tempo with significantly 
reduced Coalition support.
    <bullet>  However, the lessons learned in 2015 underscore that 
Afghan shortfalls will persist well beyond 2016. Capability gaps still 
exist in fixed and rotary-wing aviation, combined arms operations, 
intelligence collection and dissemination, and maintenance. More 
prominently, one of the greatest tactical challenges for the Afghan 
security forces has been overcoming the Afghan Air Force's extremely 
limited organic close air support capability. Admittedly, we began 
building the Afghan Air Force late and are constrained by the time it 
takes to build human capital.
    <bullet>  Those capability gaps notwithstanding, I still assess 
that at least 70% of the problems facing the Afghan Security forces 
result from poor leadership. Minister of Defense Stanekzai recognizes 
this. To date, the Afghan National Army has replaced 92 general 
officers, including the 215th Corps commander in Helmand. The MoI is 
lagging behind in making leadership changes, but we are taking steps to 
remedy this through our train, advise, and assist mission. This kind of 
change takes time.
    <bullet>  I have seen that the consequences of Kunduz and Helmand 
still weigh heavily on the leadership of both the security forces and 
the Afghan Government. They realize that, although not strategically 
significant in a pure military sense, those incidents shaped media 
coverage and undermined confidence in the government. Their desire to 
do better runs deep and is genuine. In many ways, these events forced a 
greater sense of urgency to make the changes they greatly require.
    <bullet>  Over the last year, there have been many positive trends. 
However, Afghan security forces have not consolidated significant gains 
of their own, nor defeating the insurgency across Afghanistan. Suffice 
it to say, their performance this year was uneven. To be fair, this was 
not unexpected, given the overall conditions.
    <bullet>  Ultimately, Afghanistan has not achieved an enduring 
level of security and stability that justifies a reduction in our 
support in 2016. That is why the President's decision to maintain 
current force levels through most of 2016 was welcome and important. 
This decision set the example for NATO, encouraging other Allies and 
partner nations to maintain, or in some cases increase, their 
contributions to the Resolute Support mission.
    <bullet>  During this winter lull, we are focusing on steps to best 
prepare the ANDSF for summer campaign of 2016.The leadership of the 
Afghan security forces share this focus and they are dedicated to 
resetting the force, by implementing reforms to improve training, 
equipping, and rebuilding of units that have endured unusually high 
operational tempos for long periods of time, especially those forces in 
Helmand. Such reforms are critical and are taking root with the Afghan 
security forces, but broader reforms remain important to success in 
Afghanistan.
    <bullet>  The Afghan Government, including its security 
institutions, continues to show progress in battling corruption, and 
achieving other reforms such as gender integration. However, much work 
still needs to be done. We fully understand that many want to see more 
progress on social and human rights issues before continuing to commit 
resources to Afghanistan. The National Unity Government also recognizes 
this and has welcomed our increased use of conditionality to usher 
change. They understand the importance of stability, opportunity and 
hope--the hope that inspires people to stay in Afghanistan instead of 
seeking opportunity elsewhere.
    <bullet>  Afghanistan is at an inflection point. I believe if we do 
not make deliberate, measured adjustments, 2016 is at risk of being no 
better, and possibly worse, than 2015. To place this in context, I 
would like to emphasize the uniqueness of 2015 and some dynamics I 
think we should soberly consider as we assess our way forward.
    <bullet>  The enemy has also changed this year. Unlike previous 
years, the Taliban extended the fighting season, and has continued to 
conduct operations in Helmand, as called for by Taliban leadership. 
Even so, the Taliban recognize they have no lasting gains to 
consolidate from last year, and cannot afford to cede the limited 
ground that they do hold. They are also coming out of a year that saw 
fracturing of their organization, loss of legitimacy, competition from 
other insurgent groups, and high casualty rates--probably their highest 
in years.
    <bullet>  As I meet with Afghan soldiers and police, I remind them 
that the Taliban are not 10 feet tall and bullet proof. They face 
significant challenges and they can be defeated. This fact is often 
forgotten in prominent media reports. The brief notoriety the Taliban 
gained in Kunduz and Helmand is still overshadowed by the significant 
cost of those efforts, which is compounded by the loss of credibility 
and unity as enemy infighting continues.
    <bullet>  The Taliban's public narrative in Afghanistan is waning 
too. It is not lost on the people of Afghanistan that the Taliban are 
killing Afghans--security forces and innocent civilians alike. Recent 
public information campaigns have also been more forceful, stressing to 
the public that the Taliban, `` . . . have no plan for the development 
of Afghanistan; they are here to kill you; they are against women; they 
are against education; they are against progress for the nation of 
Afghanistan.'' As these messages resonate, the government must show 
that it is the only viable option for Afghanistan. At the city, 
district, provincial, and national levels, the people of Afghanistan 
see that the return of the Taliban represents a return to brutality, 
criminality, and oppression.
    <bullet>  The operating environment is also evolving for the 
Taliban due to the emergence of other insurgent and terrorist groups. 
One such group is Daesh in Afghanistan, or Islamic State-Khorasan 
Province (IS-KP). Daesh continues to conduct brutal attacks against 
civilians, and directly competes with the Taliban for resources to 
establish a foothold in the country. They have focused their efforts on 
establishing a presence in Nangarhar and recruiting in other areas. We 
recently gained the authority to strike Daesh. Since then, we have had 
considerable success in degrading their capabilities. The rejection of 
Daesh by local elders, who are working with Afghan security forces, has 
also slowed the enemy's progress. The strikes have been effective in 
mitigating their growth. We must maintain constant pressure on Daesh 
and dedicate intelligence resources to prevent strategic surprise.
    <bullet>  The Taliban has had to adjust this year's strategy in 
order to counter the emergence of Daesh and other insurgent groups. 
This dynamic has served as a distraction to the Taliban, resulting in a 
shift of precious resources from fighting the ANDSF to countering 
opposition groups. More than just consuming resources, the in-fighting, 
and resultant inability to maintain cohesion has also severely damaged 
the credibility of the Taliban's core narrative of being a strong, 
united organization.
    <bullet>  Groups aligned with the Taliban such as al Qaeda and the 
Haqqani Network continue to threaten our national security interests. 
Al Qaeda has been significantly weakened, but as evidenced by the 
recent discovery of an al Qaeda camp on Afghanistan's southern border, 
they are certainly not extinct. The Haqqani Network remains the most 
capable threat to US and Coalition forces, planning and executing the 
most violent high profile attacks in Kabul.
    <bullet>  These are certainly not ``residual threats'' that would 
allow for peaceful transition across Afghanistan. Instead, they are 
persistent threats that are adapting to a changing operational 
environment. Ultimately, the threats Afghanistan faces require our 
sustained attention and forward presence.
    <bullet>  Reconciliation is the path needed to obtain a negotiated 
settlement and end the conflict in Afghanistan. Current reconciliation 
efforts are an Afghan-led, Afghan-owned initiative, recently renewed 
with a quadrilateral meeting in mid-January that included Afghanistan, 
Pakistan, the United States, and China.
    <bullet>  It has been over a year since the formation of the 
National Unity Government. It has faced institutional and political 
difficulties, yet can lay claim to some meaningful reform and progress 
during its first year. The unity government may be fragile, but it is 
holding despite being challenged, it is making continued progress, and 
building momentum to create an increasingly viable future. Politically, 
Afghanistan is postured for progress as well as a continuing strategic 
partnership with the United States. We have strong and willing partners 
in President Ghani and Chief Executive Abdullah--this has not always 
been the case.
    <bullet>  So, as I said at the beginning of this statement, we now 
ask ourselves, ``what else can we do to enable the Afghan Security 
Forces?'' ``What else can the Afghans do for themselves to secure their 
country?'' A strategic stalemate without end is not the goal of this 
campaign. Nor is it true to the reason we came here over 14 years ago. 
In fact, the recently submitted NATO Strategic Assessment makes 
recommendations for adjustments to the current NATO OPLAN that, in my 
best military advice, will help push the campaign past this inflection 
point and increase the prospect of achieving our shared goals.
    <bullet>  The measures that NATO is considering include advisory 
adjustments to give commanders more flexibility on the ground, and 
shifting from a yearly outlook to a 5-year vision to give all donor 
nations, and especially Afghanistan, the confidence that comes with 
predictability of support.
    <bullet>  The United States must continue to show flexibility with 
our mission in 2016 and beyond. As the commander, I am responsible for 
aligning our national objectives with ways and means while managing 
risk. Now that we have been allocated our resources for 2016, I am 
assessing the ways in which we ensure that 2016 is not a rerun of 2015. 
Based on conditions and the performance of the Afghan security forces 
during this winter lull, I am also reviewing how well those forces will 
likely perform in 2017 and the U.S. and coalition resources required 
for their continued development. This is all part of a broader process 
of which my assessment is only one part. I will provide my assessments 
of our strategy to my military leadership as well as my successor.
    <bullet>  I think it is important to remember that this time last 
year, our plan was to transition to a 1,000 troop, Kabul-centric 
footprint. Due to conditions on the ground, the President made the 
decision to extend 9,800 through most of 2016, and increased our 
posture to 5,500 in 2017. This decision provided flexibility to make 
adjustments and represents the kind of conditions based approach that 
is so important for our mission in Afghanistan.
    <bullet>  Key to this long-term success in the region is the 
resiliency of the Afghan Government and its security institutions, and 
the ability to serve as a regional partner in our combined efforts to 
counter violent extremism. It's important to remember that the National 
Unity Government welcomes our assistance. They are a dependable and 
steadfast counterterrorism partner in South Asia. 2017 marks a 
significant change in our approach as we focus our efforts to 
capitalize on the gains of the past decade and build the capacity of 
the Afghan security institutions.
    <bullet>  We now have a window of opportunity to increase our 
likelihood of achieving strategic success. Of course, our support 
should not be open-ended-- I believe our approach is sound. This year 
we will apply greater conditionality to the Afghans in managing the 
resources we give them. We are also developing a five-year vision out 
to 2020 to help better define what we are trying to accomplish, and 
avoid a year-to-year mentality. I believe that by changing our, and the 
Afghans', mindset from a cyclic ``fighting season to fighting season'' 
view to a genuine, long-term outlook best reflects our commitment.
    <bullet>  We need to provide the Afghans the time and space for 
them to continue to build their resiliency. Through their spirit and 
fortitude, they have proven worthy of our continued support. The 
actions we take now, combined with their resolve to improve, will, over 
time, develop a sustainable force capable of securing the nation, and 
in turn helping us secure ours.
    <bullet>  Thank you once again for your steadfast support of our 
campaign. I look forward to your questions.

    Chairman McCain. Thank you, General.
    I think we're in agreement that we don't want a rerun of 
2015 in 2016. General Nicholson said that he agreed with my 
assessment, in his hearing last week, that the situation--
conditions in Afghanistan are deteriorating. Do you share that 
view?
    General Campbell. Sir, I said in the opening statement that 
the situation in Afghanistan is very complex. It has been a 
very tough year in 2015. We knew it would be. We can't let 2015 
be like 2016. There are things that they can do--they are 
working on those--things that we can do. We can't have a repeat 
of 2015.
    The Taliban have been emboldened by our withdrawal, our--
the lack of close air support the Afghans have had. They have 
had--they have fought the Afghan Security Forces very tough, 
and we can't let that happen as we move forward. The situation 
has been a lot harder for them, sir, and we can't let that 
continue in 2016.
    Chairman McCain. I mentioned, in my opening statement and 
our conversations, that we should not just focus on numbers, 
but on missions and capabilities that are required to be 
provided by United States forces that the Afghans simply are 
incapable of. In my view, and, I believe, General Nicholson's 
view, that 5,500, you'll either be able to carry out the 
counterterrorism mission or the train-advise-and-assist, but 
not both. Is that your assessment?
    General Campbell. Sir, the 5,500 plan was developed 
primarily around counterterrorism. There's very limited train-
advise-and-assist in that--in those numbers. To continue to 
build on the Afghan Security Forces, the gaps and seams in 
aviation, logistics, intelligence, as I've talked about, we'd 
have to make some adjustments to that number.
    Chairman McCain. Well, my point is that right now the plan 
is to go down 5,500, the end of 2016. Is that correct?
    General Campbell. Sir, that is correct. By 1 January 2017--
--
    Chairman McCain. So, do you think that we would be 
prepared, by the end of 2016, to go down to 5,500, giving the 
requirements for both counterterrorism and train-advise-and-
assist?
    General Campbell. Sir, I've taken a look, again, at 2015, 
and provided my military leadership with what I believe are 
adjustments to the number. As you said, sir, we don't want to 
talk about number, we want to talk about capabilities. I 
think----
    Chairman McCain. If----
    General Campbell.--that if there are areas that we need to 
take a look at their capabilities that they lacked in 2015----
    Chairman McCain. Yeah, but, General, again, are they going 
to be able to carry out at--with 2---with 5,500, both the 
counterterrorism mission and the train-advise-and-insist 
mission? Are they going to be able to do that with 5,500 
troops? I think that's a pretty straightforward question, sir.
    General Campbell. Yes, sir. Sir, at 5,500, I believe that 
they can do the CT mission, the counterterrorism mission, and a 
very limited train-advise-assist----
    Chairman McCain. Will they be able to do both missions 
adequately with 5,500 troops?
    General Campbell. Sir, some of that will depend upon how 
the Afghan forces continue to make the reforms here in the 
winter lull, how they continue to improve over the summer. I 
think we've got to continually assess that. If they don't get 
after the reforms, if some of the assumptions we made----
    Chairman McCain. So, is it correct for us to plan on 5,500 
for the end of 2016?
    General Campbell. Sir, right now, you know, my last order 
is to get to 5,500. We're prepared to do that.
    Chairman McCain. Do you think----
    General Campbell.--at the same time----
    Chairman McCain. My question is, is--Do you think that that 
is appropriate for us to plan on that capability, which we're 
certainly not sure of today, and, your successor stated, with a 
deteriorating situation in Afghanistan?
    General Campbell. Sir, as the commander on the ground, what 
I believe is that I have to be prepared for all situations. I 
will prepare for 5,500, to make sure I can follow those orders. 
To the same time, based on----
    Chairman McCain. I'm asking for your professional opinion; 
not whether you can do it or not, whether it is the right thing 
to do or not.
    General Campbell. Sir, I believe the right thing to do is 
to prepare to go to 5,500, as I am ordered, but, at the same 
time, take a look at conditions on the ground, look at the 
capabilities, as you discussed, sir, not the number, and to 
provide those adjustments to my military leadership, and then 
make those adjustments to the capabilities. If we don't have 
the capabilities or if the assumptions that we made for the 
5,500 plan don't come out true, then, of course, we have to 
make those adjustments. It----
    Chairman McCain. You can't----
    General Campbell.--and it seems to me those adjustments----
    Chairman McCain.--make adjustments on the----
    General Campbell.--would mean an increased number----
    Chairman McCain.--fly--you can't make those adjustments on 
the fly. We all know that, General. I'm----
    General Campbell. Sir, we need to make those decisions 
early on. We need to make those decisions----
    Chairman McCain. The present situation, as it is, does it 
call for continued--either the counterterrorism mission or 
train-advise-and-consent, but not both? Because that's what 
5,500 troops give you.
    General Campbell. Sir, again, very little TAA on 5,500. 
Absolutely right.
    Chairman McCain. Are you concerned about the rules of 
engagement that--for example, I guess that we finally decided 
to attack ISIS. How long had you known ISIS was there before 
you got the go--the green light to attack ISIS?
    General Campbell. Sir, ISIS-KP, or Daesh, in Afghanistan, 
started forming probably in the January 2015 timeframe.
    Chairman McCain. So, that was about a year later we decided 
that we had--you had permission to strike.
    General Campbell. That's correct, sir.
    Chairman McCain. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Again, thank you, General Campbell, for your service and 
your testimony.
    You made the point, but I think it should be emphasized. In 
order to effectively be prepared for 2016, the decision about 
force level should be made earlier rather than later. What do 
you think the optimal sort of timeframe is to make that 
decision, regardless of what it is? The next 2 months? The next 
30 days?
    General Campbell. Sir, I would--my advice would be to make 
that decision as early as you could. It would probably be--I 
would like to see that made before the summer. What that does 
is, it really includes NATO. NATO's force-generation cycle, 
they start looking at that in June. So, if you want to have 
NATO part of this, you've got to make that call early so they 
can force-generate so that forces would be ready by 1 January 
2017. Same with our forces. You make those decisions late, it 
would be harder to get the folks trained, ready to be there on 
1 January 2017.
    Senator Reed. So, given General Nicholson's obligation and 
commitment to make a very careful review of--which I assume is 
stressed 30-plus days, he should be ready to make a 
recommendation early spring so that the decision should be made 
early summer, at the latest.
    General Campbell. Sir, General Nicholson talked about 90 
days. Sir, I'll make sure he has all of my assessments, all--
everything that I have, a complete transition that will help 
him move along in his assessment, as well.
    Senator Reed. Regardless of what the decision is, it should 
be made, in your view, by early summer. Say, June.
    General Campbell. Sir, I would say it would--it is prudent 
if we make the decision as early as----
    Senator Reed. All right.
    General Campbell.--we can. Yes, sir.
    Senator Reed. Let me also ask about the nature of the 
changing missions, based upon the last year. I think it's 
important, because the decisions that were made with respect to 
the current force structure and the projected force structure 
were made more than a year ago. In that time, the Pakistan 
military forces have driven considerable number of insurgents, 
particularly into Nangarhar Province in the east, including al 
Qaeda elements. You've also seen the formation in that year of 
ISKP, which requires, I assume--I'll ask the question--a much 
more vigorous counterterrorism activity than you contemplated a 
year ago, or the President contemplated a year ago. Is that 
accurate?
    General Campbell. Sir, that would be accurate. Yes, sir.
    Senator Reed. So, in the counterterror mission alone, there 
is a need for increased capacity. That might not be directly 
related to numbers, but at least increased capacity. Is that 
correct?
    General Campbell. Sir, I'd rather discuss on CT in a closed 
hearing, but on specific numbers and the capability of a CT 
component. Just suffice it to say we have the very best 
counterterrorism capability in the entire world. With the 
additional authorities we received about 2 weeks ago, we've--we 
have fused those with the resources that I currently have. Yes, 
sir.
    Senator Reed. Let me--another variation on this is that, as 
you suggested in your testimony, because of the--a conflict 
between--and fragmentation between the Taliban and ISKP, 
there's been active combat between those two elements. Is that 
correct?
    General Campbell. Sir, that is correct, especially in the 
Nangarhar Province.
    Senator Reed. Right. Our efforts now are authorized to 
degrade ISKP--could leave a situation where the Taliban is--has 
much more flexibility to attack Afghan National Security 
Forces. Is that a real possibility?
    General Campbell. Sir, we've got to balance that, so, yes, 
sir, that is a possibility.
    Senator Reed. So, it raises the issue of authorities, in 
terms of having the authority to also conduct strikes against 
ANS---excuse me, against Taliban elements, even though they 
might not be directly threatening American personnel and force 
protection. Is that something you're thinking about?
    General Campbell. Sir, as I talked about, making sure that 
2016 is not like 2015, as I bin that--you know, you can bin 
more people, more resources, or more authorities. I believe 
that the--the authorities piece, I have taken a hard look at, 
and I have provided recommendations on mitigating and adjusting 
authorities to my chain of command.
    Senator Reed. One of the aspects here is that the--I know 
you suggested the complexity in the interrelatedness of all of 
these different decisions, that the decision to go after ISKP 
proactively raises the issue of whether the Taliban will take 
advantage unwittingly of our attacks, and that's something we 
have to also consider. I think that's a point you would agree 
with.
    General Campbell. Yes, sir. Again, sir, the goal is to 
build the Afghan capacity so they----
    Senator Reed. Right.
    General Campbell.--can do this, themselves, as well. 
Absolutely.
    Senator Reed. The other issue, in terms of military, is the 
overall requirements to move the Afghan National Security 
Forces from a static deployment to a much more proactive 
deployment, and that is something that will require resources 
in the training-assist mission, to--not only training, but also 
providing enablers so that they can get out of those fixed 
positions to checkpoints, et cetera. That adds another sort of 
capacity requirement, in your view?
    General Campbell. Sir, it could. I think it really depends 
on the leadership of the Afghan Security Forces. They have been 
trying to reduce checkpoints. In some corps, they've been able 
to do it okay; in other corps, they haven't done anything. So, 
it is about leadership. Additional train-advise-and-assist 
could potentially provide assistance to them to get after that. 
This--these are--this is one of the short-term reforms we're 
trying to get after during this winter campaign.
    Senator Reed. You'll evaluate that, and that'll help inform 
you and, more appropriate, General Nicholson when he makes a 
recommendation.
    General Campbell. Absolutely, sir. Yes, sir.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Welcome, General Campbell, and thank you so much for your 
many years of service to this country and to our people.
    When we met yesterday, you talked about transitioning the 
Afghan army out of a defensive stance into more of a focus on 
an offensive action. So, I would like to ask, What are the main 
steps that you see that must be taken in order to accomplish 
this? You, earlier, mentioned the capability gaps, and we see 
that with intelligence aviation, but that's going to take quite 
a few years to remedy. I'd like to focus on how those gaps 
relate more to operations. Do you think it's going to take 
years for the ANF--ANSF to move to that defensive stance? How 
is that transition going to relate to those capability gaps?
    General Campbell. Thank you, Senator, for the question.
    We've been working on reducing checkpoints, trying to get 
them more maneuverable, for the last year, the focus during the 
winter, because they saw the result of not doing that during 
the fighting season of 2015, where they had more casualties and 
they were defensive in nature. I think what they are doing now 
is identifying key terrain in different provinces and districts 
where they absolutely need these combat outposts, and then 
reduce where they have probably 80 percent of their force on 
these type of checkpoints, both in the police and the army. To 
get there, they have to do better coordination between the MOI 
and MOD so that you can't have the police come off one, 
expecting the army will occupy it, or vice versa, have the army 
come off, expecting the police. They also have to make sure 
that there's some sort of political consensus with the 
governors, with the district governors, because sometimes 
they're an impediment to make sure that the operating forces 
can adjust their forces.
    It's been a continuous struggle, where we've worked with 
them closely and where they have good leadership and understand 
how important it is to come off with the checkpoints, be more 
maneuverable. We're starting to gain a little bit of traction, 
and we'll stay with them.
    How that ties in to the capability gaps. They have a finite 
number of resources, especially in the close air support. So, 
if you're--got checkpoints all throughout the country, it'll be 
hard to get those kind of precious resources out there. So, 
they do have to prioritize where they apply their 352,000 
Afghan Security Forces. So, moving out of the checkpoints into 
these key terrain places, I think will help them.
    The close air support, Afghan Air Force--ma'am, is going to 
take several more years. It takes about 3 years to build a 
pilot. So, if we pick somebody today, they won't see that pilot 
for 3 more years. That's just the human capital aspect, that 
doesn't include acquiring the platforms, the helicopters and 
the fixed-wing. They just received four of the A-29 Super 
Tucano fixed-wing aircraft about 2 or 3 weeks ago. We'll get 
another four in the April-May timeframe. That's it for this 
year. So, it's going to take 3 years before they even get all 
of the equipment for the Air Force, and we'll continue to build 
upon that.
    Senator Fischer. How does that affect us in our planning 
our strategy? Are you looking at the need to find a solution 
for all of this as we look at cutting down troops? How do--how 
does that all tie in? Because there's a number of operations 
that are out there. Do we have to fix it all?
    General Campbell. Ma'am, I think, for the closer air 
support, again, it's a long-term effort to make sure that they 
have the right rotary-wing and fixed-wing support. That's going 
to take several years. We do have a current plan. What I've 
asked to do is another study to take a look at a longer-term 
plan to convert MI-17s, that kind of aircraft, to probably a 
U.S. aircraft. We're going to need support from this Congress 
once we get through that, because that is not included in the 
current financing of the Afghan Security Force as we go 
forward. The frames that we've bought for them, the MI-17s, 
based on operational losses, OPTEMPO, over the next couple of 
years, that's going to continue to go down, and we'll have to 
figure out the lifecycle maintenance of probably a different 
airframe.
    Senator Fischer. How important is it for the Afghans and 
also for our allies that are there to maintain the leadership 
of our country, America's leadership in this area, to provide--
and again, not just the Afghans, but also our allies with the 
certainty that we are committed? You said this is going to take 
years--how do we get the message to them that we are committed, 
they have that certainty, when we have discussions about 
lowering personnel, lowering our troops in the area without 
regards to what's taking place on the ground?
    General Campbell. Yes, ma'am. We have to--again, we have to 
talk in longer terms. We can't talk cyclic, one year at a time. 
I think it begins this year at Warsaw, where we get all the 
donor nations to commit to long term for financing of 2018, 
2019, 2020. If we can finance it that way, we ought to talk 
about people, equipment, resources the same way, and talk in 
terms of 5 years.
    NATO made their decision to continue Resolute Support after 
the President made our decision to stay at 9,800. As long as 
the U.S. leads, then I think NATO will continue to be there 
with us. Now that they are going to be with us into 2017, as I 
talked about adjustments to the 5,500 number did not include 
early support to NATO. So, again, that's one of the adjustments 
I've taken a look at since that decision was made, and I've 
provided those adjustments that I said we have to make on that 
5,500 capability as we move forward.
    Senator Fischer. We're seeing support of our NATO allies 
when they know that we are going to be there and lead. Do, we 
also see support with the Afghan people?
    General Campbell. Ma'am, I talked to NATO right after the 
October decision. They're absolutely on board. All the 
countries continue to support in 2016. Many have already 
committed for 2017. So, again, I think they understand that 
NATO--this is NATO's largest mission, NATO's longest operation 
they've ever had in their history. They want it to be 
successful. If we continue to lead, NATO will be there.
    As far as the Afghan people, you know, every survey, every 
time I talk to Afghans, overwhelmingly understand that, to 
continue to build their Afghan Security Forces for the--a 
secure country, they're going to need our support, and they 
overwhelmingly want that.
    Senator Fischer. Thank you, General.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, General Campbell, for your service. This country 
certainly owes a debt of gratitude to you and your family for 
what you have done. I wish you much success in whatever you 
decide to do next.
    I want to continue the conversation you were just having 
with Senator Fischer, because I think your point in your 
testimony about the need to provide a long-term commitment to 
Afghanistan that people can count on, so they don't feel like 
we're going to be leaving at the end of each year, is very 
important. Do you--when you talk about the support from the 
international community and NATO, have they continued to make 
the financial contributions that they have committed to for 
Afghanistan? Are they--have you spoken with them about their 
willingness to commit to a 5-year plan for the country?
    General Campbell. Ma'am, I raised the 5-year issue. General 
Breedlove raised it at the last Chief of Defense Conference, a 
couple of weeks ago. It'll go ahead to the Ministers of Defense 
of all the countries next week. I think, based on what I saw 
from the CHOD Conference, there should be pretty good support 
as we move forward. I think they're absolutely for that. It 
gives them the ability to plan, to resource. You know, again, 
any budget one year at a time is very, very hard to do. So, I 
think NATO is completely on board with that. All the countries 
continue to provide the assistance that they pledged at the 
Chicago f2012 Conference. Again, the United States is the 
biggest contributor, but the NATO countries continue to 
provide, and have done so.
    I think if we talk in terms of a long-term commitment, it 
does a couple of things. It gives confidence to the Afghan 
Government, to the National Unity Government, to the Afghan 
people, to the Afghan Security Forces. It sends a message to 
Pakistan, it sends a message to the Taliban, and it sends a 
message to NATO. So, again, long-term commitment, talking those 
kind of terms, conditions-based on the ground, is the way we 
need to move forward to enable the Afghans to have a--to have 
predictability and stability. A lot of reason you see a lot of 
refugees leaving out of Afghanistan this year is because of 
that instability. Security, of course----
    Senator Shaheen. Right.
    General Campbell.--but, again, the instability of thinking 
people are going to leave, year after year after year.
    Senator Shaheen. So, just to be clear, they are current in 
financial obligations that have been made.
    General Campbell. The countries have, yes, ma'am. 
Afghanistan, based on the Chicago Conference, pledged 500 
million a year toward the security forces.
    Senator Shaheen. Right.
    General Campbell. They have met that. They want to bring 
that--continue to bring that up.
    Senator Shaheen. Thank you.
    Earlier this week, there were reports of several airstrikes 
that destroyed a radio station that was operated by ISIS near 
the border with Pakistan. Obviously the radio station is 
assumed to be broadcasting extremist messages. I was interested 
in your comments about the efforts of the central government 
to--I don't want to call it ``propaganda,'' but to point out 
the differences, to the Afghan people, between the work of the 
central government and what they're seeing from the Taliban 
and, I assume, from ISIS.
    So, first, I want to ask, Do the people of Afghanistan 
distinguish between the Taliban and ISIS? As you say, this 
battle is really as much as--about the hearts and minds of the 
Afghan people as it is about the military conflict. To what 
extent is there support for what the central government is 
doing in trying to point out to the people of the country the 
differences between the Taliban and what the central government 
is proposing? How much are we helping in that effort?
    General Campbell. Thank you, ma'am, for the question.
    Absolutely, the Afghan people understand and see the 
difference between Taliban and Daesh or ISIL, and they 
understand that ISIL has been very brutal. All the countries in 
the region absolutely understand that ISIL has been very brutal 
and have talked to Afghanistan about what they can help fight 
this regional piece about ISIL. President Ghani looks at it 
as--not as an Afghan problem, but as a regional, and actually a 
global, piece, and that everybody has to stand up for it.
    As far as providing confidence to the people, you know, I 
think it depends upon what part of the country, what district 
you're in, what leadership is out there, if you have good 
district governors. He has good people in his staff that 
provide what the people want. They care for them, and they 
absolutely believe that the National Unity Government is 
supporting them. Other places that they don't have that and all 
you have is the Taliban, and the Taliban provides some sort of 
support to them, then they're going to believe the Taliban.
    Again, people want the same things we want here. They want 
their kids to go to school. Taliban don't believe in that. They 
want folks to have a job, to have a roof over their heads, on 
and on. So, overwhelmingly, they don't want to go back to 
Taliban days. If they don't have support from the government at 
the lowest levels, they're going to make the choice to go with 
whoever is supporting them.
    The National Unity Government knows it has to do a better 
job in getting out and being with the people. President Ghani 
was just in Kandahar yesterday. He is getting out now to all 
the different provinces to really meet with the leadership. 
He's doing another thing by taking the Ulama, or the religious 
leaders, as well, and making sure that they're tied into it, 
because they absolutely can help get the right message across 
about what the government is trying to do and how bad the 
Taliban is.
    Senator Shaheen. I know my time is expired, Mr. Chairman, 
but if I could just ask him to follow up on the other part of 
my question, which is, Are we contributing at all, in terms of 
direct assistance, to a counter-ISIL, a counter-Taliban message 
to the people of Afghanistan, that's organized?
    General Campbell. Ma'am, I can give you that in a closed 
hearing, if I----
    Senator Shaheen. Okay.
    General Campbell.--could provide that to you. Yes, ma'am.
    Senator Shaheen. Thank you. That would be helpful.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. Thank you, Chairman.
    General Campbell, I want to thank you for your 
distinguished service to the country and for your leadership. 
You've done an excellent job. I wish you the best, going 
forward. I want to thank your family, as well. We're very proud 
of you.
    I wanted to follow up on the questions that Chairman McCain 
asked you about the drop in troop levels in Afghanistan to 
5,500. As I understand your answer, this will enable very 
little train, advise, and assist, and will be focused on a CT 
function in Afghanistan. My question to you is, If that 
decision, in fact, stands, and that's where we remain, what 
risks do we incur by going in that direction? What--especially 
as I heard your testimony based on what happened in 2015 in 
Afghanistan.
    General Campbell. Thank you, ma'am, for the question.
    Again, the 5,500 number was primarily built around a CT 
structure. As we've taken a look at that decision and what's 
changed on the ground, elections are going to happen, 
potentially in October. That was not considered. Assumptions 
that the Afghan Security Forces would provide other things to 
support that number, if they don't make some of the reforms, 
then General Nicholson will absolutely have to come forward and 
said, ``This assumption did not prove true; therefore, we need 
X.'' So, right now, what we're counting on is that the Afghans 
will make necessary reforms that will complement and enable us 
to be at that capability and that number. If they don't, as I 
have said before, I've already looked at and provided the 
military chain of command ways that we can make adjustments to 
the capabilities, as Senator McCain talked about, that we're 
going to absolutely need.
    Senator Ayotte. So, I just want to----
    General Campbell. There's very limited TAA at that number, 
yes, ma'am.
    Senator Ayotte. So, I want to understand, just so the 
American people understand, What are the risks there, then? If 
all this doesn't work out perfectly and we still yet go to that 
number, what kind of risk do we face on the ground that are 
risks to our interests?
    General Campbell. The risk would be that the Afghan 
Security Forces will not be able to make the necessary 
adjustments and improve as we thought that they could. It would 
take them much longer, and it would be a much harder fight 
against the insurgents in 2016 and 2017.
    Senator Ayotte. Would that also provide more safe haven 
for, obviously, potential extremist groups and, obviously, the 
Taliban's reinsurgence?
    General Campbell. It could. Yes, ma'am.
    Senator Ayotte. I wanted to also ask you--you talked about 
the NATO commitment. I think you said that NATO will follow us. 
So, if we do cut in half what we have in Afghanistan, what do 
you expect our NATO partners would do?
    General Campbell. Again, ma'am, under the 5,500 number, 
when that plan was developed, when the President made that 
decision, NATO had not made their decision yet. NATO made their 
decision after the 5,500 number, probably in the December 
timeframe, to continue the Resolute Support Mission into 2017. 
I believe NATO in--absolutely would welcome, and needs, the 
U.S. to continue to have the lead. We actually provide some 
resources to our NATO partners, both in the north and west.
    Senator Ayotte. Do you agree with me, if we go down, NATO's 
going to--I mean, they're going to diminish, too, or, at some 
point, get out of this operation?
    General Campbell. If our number continues to go down, NATO 
will absolutely reduce their commitment in Afghanistan. I 
believe that is true.
    Senator Ayotte. So, Iran. I wanted to ask you to describe 
for us what Iran's activities are in Afghanistan right now, and 
also describe for us what activities they are undertaking that 
concern you.
    General Campbell. Ma'am, I think, you know, what 
Afghanistan is trying to do is have a sovereign-country-to-
sovereign-country relationship with their neighbor to the west, 
Iran. Dr. Abdullah was just there about 2 weeks trying to work 
through that piece of it. I am concerned that Iran has provided 
support to the Taliban in order for the Taliban to fight ISIL 
or Daesh. They are worried about ISIL or Daesh, so they have 
provided support to the Taliban. I'm worried that that support 
that they provide to the Taliban could be used against the 
Afghan Security Forces.
    Senator Ayotte. Are you worried, at some point, that Iran's 
territory could be used as a potential safe haven, as well, as 
we've seen in Pakistan for the Taliban?
    General Campbell. I think that's a possibility, yes, ma'am. 
I think we've got to do everything we can to make sure that 
doesn't happen.
    Senator Ayotte. Thank you, General.
    Chairman McCain. I'd very much like to move the nomination 
of Lieutenant General Nicholson. I would ask the committee to 
consider the nomination of Lieutenant General John W. 
Nicholson, Jr., to be general and Commander of Resolute Support 
and Commander United States Forces-Afghanistan. This nomination 
has been before the committee the required time.
    If there's an objection.
    [No response.]
    Chairman McCain. Hearing none, then is there a motion to so 
favorably report Lieutenant General Nicholson's nomination to 
the Senate?
    Senator Reed. So moved.
    Chairman McCain. Is there a second?
    Senator Ayotte. Second.
    Chairman McCain. All in favor, say aye.
    [A chorus of ayes.]
    Chairman McCain. The motion carries.
    Thank you.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    General Campbell, thank you for your service in----
    Chairman McCain. Could I just--Senator Donnelly, you are in 
favor of the nomination of General Nicholson?
    Senator Donnelly. If you say so, sir, I----
    [Laughter.]
    Senator Blumenthal. Thank you, Mr. Chairman.
    General Campbell, thank you for your service to our Nation 
in this job and many previous assignments, and your distinction 
in providing insightful and deliberate testimony to this 
committee.
    You have said, I think, in the past, that 70 percent of 
Afghanistan's military problems are related to weak political 
leadership. I may be misstating or exaggerating, but my 
question is directed to less the technical strength or 
viability of the military capacity of the country and more to 
the effectiveness and reliability of the political leadership. 
In your view, is Afghanistan's political leadership up to the 
job?
    General Campbell. Sir, if I can just say about the 70 
percent, I was referring to military leadership; 70 percent of 
the problems they have in the MOI and the MOD is based on the 
leadership they have there. If they pick the right leaders, and 
they hold them accountable, that'll take care of many of their 
issues.
    Sir, your question on the political piece--and again, I----
    Senator Blumenthal. I stand corrected, and I apologize 
for----
    General Campbell. I understand, sir. I--on the--whether or 
not President Ghani, Dr. Abdullah--I think you asked, sir, the 
National Unity Government is viable--can it govern as we move 
forward? Sir, it survived the last 15-16 months under very, 
very tough fighting season, where Afghanistan was fighting for 
its survival. It survived President Ghani reaching out to 
Pakistan to try to change the dynamics on the ground in that 
relationship. It sustained opposition, like President Karzai 
doing different things out there. So, it's been a rough road. 
We shouldn't make light of that, sir. President Ghani and Dr. 
Abdullah, on the big policy issues, I believe there's no 
daylight between them. They continue to work very hard, because 
they understand how important it is for the future of 
Afghanistan, and they know there's no other viable option.
    When it comes to picking governors, ministers, other folks, 
I really do think it's the people around the President, people 
around Dr. Abdullah, that are stirring up the waters. I see 
both Dr. Abdullah, President Ghani many times a week, and they 
are a great partner, and they understand how--and they value 
the--their foundational partner is the United States. I think 
we have to continue to work with them. They understand the 
issues and challenges they have to work on. It's going to take 
them a while to do that, sir. I think we've just got to 
continue to provide the assistance we can to help them move 
that forward.
    Senator Blumenthal. You'd agree that, as we saw in Iraq, an 
inclusive and effective government in Afghanistan is essential 
to military success.
    Senator Blumenthal. Sir, absolutely. I mean, there's no 
comparison between what you had in Iraq with Maliki and then 
what you have in Afghanistan today with the National Unity 
Government.
    Senator Blumenthal. On the issue of political 
relationships, I want to mention Pakistan. Are you satisfied 
with progress that has been made, if there has been progress, 
in combating the flow of both militants and munitions across 
the border from Pakistan?
    General Campbell. Sir, I--when I think about Pakistan, I 
think about, you know, both political issues, economic issues. 
I most deal with the military-to-military issues and make sure 
that the Pak Army and the Afghan Army continue to talk corps-
to-corps, and they talk those kind of issues. So, they 
understand that they have to continue to do that, to fight this 
enemy that knows no borders, and that it's good for both of 
them to continue to develop that relationship. If they're not 
talking, they're not going to go anywhere.
    I am concerned about what is going across both from 
Pakistan into Afghanistan and, quite frankly, as General Raheel 
has talked to me about, the chief of the Pakistan Army, 
potential stuff going from Afghanistan into Pakistan, as they 
believe happened a couple of weeks ago on a school attack 
there.
    So, I think the more mil-to-mil they can work together to 
improve discussion between corps-to-corps, what goes on between 
that very open border, that it'll only get better. I am 
concerned about what's going across. Yes, sir.
    Senator Blumenthal. My time is expired, but I thank you 
very much.
    Thank you.
    Chairman McCain. Senator Graham.
    Senator Graham. General, thank you and your whole team. I 
had the pleasure to meet most of your folks over there, and I 
think you can look back on your time and say, ``Well done.''
    You kept Afghanistan together. It's not Iraq. Let's talk 
about that for a second.
    Kunduz. When the Taliban came in and dislodged the police 
and the security forces, the town was retaken by the Afghans. 
Is that correct?
    General Campbell. Sir, that is correct.
    Senator Graham. There's a big difference between Kunduz, 
Mosul, and Ramadi?
    General Campbell. Sir, absolutely. I mean, the fortitude 
and resilience of the Afghan forces to get back and take over a 
town of 300,000 in a very short time was pretty remarkable.
    Senator Graham. If we had no U.S. troops there, how hard 
would it have been to accomplish that task?
    General Campbell. Sir, in my estimation, it would have 
taken a lot longer to be able to do that.
    Senator Graham. Right now, at this moment, if you had to 
tell this committee should we stay at 9,800, based on what you 
know right now, at this moment, for the rest of the year and 
into next year, what would you say?
    General Campbell. Sir, then I would be violating what 
Senator McCain told me to talk about, about capabilities, sir. 
I--and as--again, sir, what I've done----
    Senator Graham. You're not bound by that.
    [Laughter.]
    General Campbell. Sir, I'm--what I'm telling you is that 
the 5,500--I am glad we're at 5,500, sir. We're in a much 
better place than we were.
    Senator Graham. You mean the 9,800.
    General Campbell. 5,500--we're at 98-now, yes, sir.
    Senator Graham. Yeah.
    General Campbell. So, we're in a much better place than we 
were. I am very glad that we're there. As we look at going down 
to 5,500, I've got to manage it. I want to keep 9,800 as long 
as I can in 2016 before I have to drop to 5,500. To do that 
after the fighting season, between the October-November-
December timeframe, is going to be very, very difficult, but I 
have to figure out a way, and I'll pass it----
    Senator Graham. Is the 5,500 a military goal or a political 
goal?
    General Campbell. Sir, the 5,500 was a number based on 
certain assumptions and mission sets that were required to 
accomplish----
    Senator Graham. If I ask you right now, ``Do you think we 
should be at 5,500 at the end of the year?'' is that a good 
military thing?
    General Campbell. Sir, I would have to base it on 
conditions on the ground.
    Senator Graham. Yeah. You want to do counterterrorism, 
right?
    General Campbell. Yes, sir.
    Senator Graham. So, 5,500 is mostly counterterrorism-
centric.
    General Campbell. It's most CT. It has limited TAA----
    Senator Graham. You just described to Senator Fischer 
tremendous gaps in their air capability of the Afghans. You've 
talked about 2015 being tough. I just--is--I just don't see 
where the 5,500--did the military recommend 5,500, or was this 
just a number picked by the White House?
    General Campbell. Sir, that was part of a long process that 
the military was tied into. Yes, sir.
    Senator Graham. I mean--well, no. My question is, Did the 
military say, ``We think, based on everything we know about 
Afghanistan, 5,500 is the right number"? Or did that come from 
the politicians in the White House?
    General Campbell. Sir, I don't believe that came from the 
politicians. That was an overall process----
    Senator Graham. What general recommended 5,500?
    General Campbell. Sir, I don't want to go into, you know, 
discussions----
    Senator Graham. I just want to know where this number came 
from. I want to know, Is it a politically-driven number or is 
it a military-driven number?
    General Campbell. Sir, I think it's a number driven based 
on the mission sets, the narrow mission sets of TAA, limited as 
I talked about, and a CT mission. In the--but, again, there 
were assumptions made--as every course of action, there are 
assumptions made. If those assumptions don't prove----
    Senator Graham. Did the military suggest we just do two 
things in Afghanistan--counterterrorism, train-advise-and-
insist--or did that come from the political leadership?
    General Campbell. Sir, the military has an opportunity to 
provide their best military advice on the--you know, the 
purpose of why we're there, the mission sets that are 
assigned----
    Senator Graham. The only reason I mention this is that 
we're in Iraq in a state of disarray. I've been hearing, for a 
long time, that it is the Iraqis who said no to residual 
forces. I don't believe that for a moment. I know what the 
military recommended to the White House, and I know how we got 
to zero. The same people that pushed us to zero, I think, are 
pushing us to 5,500. Maybe I'm wrong. Maybe 5,500 is the best 
military configuration at the end of 2016. I just have real 
serious doubts about that. Am I wrong to doubt that?
    General Campbell. Sir, as I said, I have already provided 
what I think are adjustments to that number----
    Senator Graham. Okay.
    General Campbell.--based on the capabilities that will be 
required to move forward----
    Senator Graham. Is the Taliban an enemy of this country?
    General Campbell. I didn't hear the question, sir.
    Senator Graham. Is the Taliban an enemy of the United 
States?
    General Campbell. The Taliban--as far as helping al Qaeda 
and Haqqani and other insurgence groups, Taliban have been 
responsible for----
    Senator Graham. If the Taliban were in charge of 
Afghanistan tomorrow, would our Homeland be threatened?
    General Campbell. Sir, I think it would be more at risk.
    Senator Graham. Are you prohibited from attacking senior 
leadership of the Taliban?
    General Campbell. Sir, I have all the authorities I need to 
protect our coalition----
    Senator Graham. Can you attack the senior leadership of the 
Taliban?
    General Campbell. Sir, if there's senior leadership of the 
Taliban that are attacking----
    Senator Graham. I'm not talking about force protection. I'm 
talking about, Can you go after the Taliban who are trying to 
take over the country of Afghanistan that would invite 
terrorists back into that region to attack us? Can you attack 
the Taliban?
    General Campbell. Sir, I believe that the Taliban are a 
threat to us, and I'd attack them if--I cannot attack Taliban--
--
    Senator Graham. Without shooting at a soldier, can you 
attack them? If they're not shooting at one of our soldiers, 
can you attack them?
    General Campbell. Sir, I have to make a force-protection 
nexus to the Taliban.
    Senator Graham. So, our limitations on the Taliban is that 
they've got to have a direct threat to U.S. forces. Right?
    General Campbell. Sir, again, I don't go into rules-of-
engagement authorities in open hearing. What I would tell you 
is that our country has made the decision that we are not at 
war with the Taliban.
    Senator Graham. Do you think we're at war with the Taliban?
    General Campbell. I think the Taliban have killed many of 
my soldiers----
    Senator Graham. Do you think they're at war with us?
    General Campbell. Sir, the Taliban continue to----
    Senator Graham. Do you think the Taliban would welcome an 
attack on the United States if they could help make one happen?
    General Campbell. I do, sir.
    Senator Graham. Yeah.
    Thank you.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    General, thank you for everything you've done for our 
country. We are really in your debt.
    When the 9,800 level was set, in light of the things that 
have happened on the ground--push here, push there, those kind 
of things--does the 9,800 level being there--when you set that 
number, did you anticipate things like this would happen? I 
mean, has that number, in your mind, needed to be adjusted 
because of what's happened, or do you think it's sufficient to 
meet the challenges that you deal with every day?
    General Campbell. Sir, the 9,800 number was already 
determined before I got there.
    Senator Donnelly. Right.
    General Campbell. All right? So--and we were going down to 
1,000 when I got there. We had no CT capability at 1,000. We 
were Kabul-centric. Today, we have a CT mission and the ability 
to work that mission, and we're not Kabul-centric. So, I think 
we have great flexibility as we move forward because of the 
decisions that have been made.
    The 5,500 number, as I've said several times today in 
testimony, is--I have made my recommendations to adjustments on 
the capabilities that are required based on what we learned in 
2015. The 5,500 number is primarily focused on CT. If the 
Afghans cannot improve, we're going to have to make some 
adjustments, and that means that number will most likely go up. 
So, yes, sir.
    Senator Donnelly. When you look at the situation and make a 
judgment, what are the things that worry you the most as you 
look at what lies ahead?
    General Campbell. Sir, always number one in my mind is 
force protection of our men and women, to make sure that we 
have all the resources, the authorities to be able to protect 
them, and whether they're sitting at Bagram or whether they're 
sitting in Kabul, whether they're doing expedition advising on 
another combat outpost someplace in Afghanistan. So, that's 
number one.
    Number two is, I want to make sure that we continue--or I 
worry about the Afghans not putting the right leadership and 
having a sense of urgency to continue to move forward. They've 
made so many gains, they've done so well over the last 14 years 
to get to where they're at, that, if they do--don't do some of 
the things here because of how long it's taken, they'll lose 
the confidence of the donor nations; and if they don't have the 
money, then they can't move forward. They absolutely need to 
have the continued support of the coalition and the nations 
that provide the funding. They will not have the funding, their 
economy will not be able to support, by all the reports I've 
seen, a--without any help, til about 2024. We're looking at the 
Warsaw to get them through 2020. Again, President Ghani is 
doing everything he can to build upon a regional peace to get 
their economy going.
    So, I worry about our force protection, I worry about them 
being able to continue to make progress without other nations 
losing confidence and abandoning them.
    Senator Donnelly. When you look at Afghanistan, and some of 
the challenges with the Taliban have been in the more rural or 
outlying areas, where they've had an outsized influence, is it 
that the people in those areas are more accepting of the 
Taliban, or they just have the ability to push back as much?
    General Campbell. Sir, I think it's probably a little bit 
both, but probably more the latter, that, you know, they would 
like to push back, but, if they don't have the police, the army 
to be able to support them in those areas, and if the Taliban 
threatens them--in some areas, they stand up, and they do a 
great job. That's where we get Afghan local police, and they 
work through that. In other areas, you know, they want to 
continue to survive, and they'll--the Taliban put that pressure 
on them.
    Senator Donnelly. When you look at the Taliban, what are 
the biggest advantages that they bring to the fight on their 
side? What's our best way to counter that?
    General Campbell. Sir, again, the Taliban--what they've 
done well is, they have--they've--the Afghan people, or really 
the Afghan Security Forces in--the first time I've seen it--and 
that's why I said the Taliban can be beaten, they're not 10 
feet tall--but, in many areas, their propaganda, their 
information ops have convinced many of the security forces that 
they can beat them. They can't. They can't. They're not manned, 
they're not equipped, they're not trained. The advantage they 
have is, they don't follow any rules, they can kill civilians, 
they can target whoever they want to target, they can put out 
little IEDs out there that just kill indiscriminately. So, 
that's what they do. I mean, that--they're terrorists. That's 
how they take advantage. They put fear in the hearts of the 
people. The Afghan Security Forces are like any of our other 
militaries that we want; they have to abide by rules, they have 
to watch out for civilian casualties, they have discipline. The 
Taliban don't have any of that. They offer nothing to the 
future of Afghanistan.
    Senator Donnelly. Thank you very much.
    Thank you.
    Chairman McCain. Senator Cotton.
    Senator Cotton. General Campbell, it's good to see you 
again before this committee; for the last time, it would 
appear. Thank you for your service, not just in Afghanistan, 
but your service for many years in uniform. You certainly are 
in the right to drop the rucksack and ask someone else to pick 
it up now.
    I want to return a topic that Senator Graham was 
addressing. You said, quote, ``Our country is not at war with 
the Taliban,'' end quote. People have to make decisions for 
countries. Is that a decision that was made by the Commander in 
Chief, that our country is no longer at war with the Taliban?
    General Campbell. Sir, that's a policy decision.
    Senator Cotton. Okay. When you were asked if the Taliban 
would attack the United States today if they could, you 
answered, ``I do.'' That's correct?
    General Campbell. Sir, they're attacking forces in 
Afghanistan. Again, the network in Afghanistan, where you get 
Haqqani, al Qaeda, LET---it's all intermingled. We know for 
sure that ISIL, we know for sure that AQ and some of its 
remnants have already attacked the U.S. and want to continue 
to--have vision on doing that. So, the Taliban support that in 
other ways, yes, sir.
    Senator Cotton. Okay. In your opening statement, you 
indicated that newly authorized airstrikes against the Islamic 
States in Afghanistan have been effective in slowing their 
growth. Would you expect the use of United States airpower 
against the Taliban to have similar effect on the Taliban's 
progress in the country if you used airpower against the 
Taliban?
    General Campbell. Sir, again, I'm trying to build the 
Afghan capability to do that. As I take a look at adjustments 
that need to be made, authorities is one of those for 2016. As 
I said up front, I have provided my leadership some mitigating 
efforts that I think will improve the Afghan forces and their 
probability of success against the Taliban as we move forward. 
Yes, sir.
    Senator Cotton. As you were suggesting to Senator Graham 
about responding to the Taliban if they're attacking coalition 
forces, David Petraeus wrote, in the Washington Post 
approximately 3 weeks ago, that, ``Airpower currently is used 
only, one, to attack validated al Qaeda targets; two, to 
counter specific individuals or groups who have attacked 
coalition forces previously; and three, to respond directly to 
attacks on coalition forces. According to leaders on the 
ground, United States and NATO forces are not otherwise allowed 
to attack Taliban targets.'' Do you think the lack of United 
States airpower being employed against the Taliban accounts for 
some of their gains in the country?
    General Campbell. I think the Taliban know that we've 
downsized, and I think the Taliban understand that, in the 
past, they couldn't gather in larger formations. I think we've 
seen, this year, that they have taken advantage of the 
reduction of the number of coalition aircraft, absolutely.
    Senator Cotton. Thank you.
    I want to turn now to the attacks in Helmand Province on 
January 5th in which Army staff sergeant Matthew McClintock 
died. There's been some reporting in the media that the Quick 
Reaction Force was not allowed to deploy rapidly, and that an 
AC-130 gunship was in the air and was not allowed to engage 
during the firefight. I'm sure you're up to speed on this 
event. Could you--would you care to share with the committee 
your thoughts on what happened that evening?
    General Campbell. Sir, that's under investigation right 
now. As you know, when investigations are ongoing, we don't 
discuss it. What I would tell you is that, you know, we'll do 
everything to provide force protection. I've said that's number 
one utmost in my mind. We'll make sure whenever we employ our 
forces and they are in a train-advise-assist role with the 
Afghan Special Operating Forces that we have all the necessary 
resources required to reduce the threat to them. I mean, 
whenever we send folks out, there is a CONOP process that goes 
forward to make sure that we have the right Medevac, we have 
the right Quick Reaction Force, on and on and on.
    So, this investigation will find out what exactly happened 
on that. I need to hold off on that until that investigation is 
brought forward to me.
    Senator Cotton. Are the restrictions that you face, both in 
the resources available to you and the way you employ those 
resources, potentially at play in what happened in Marjah that 
evening?
    General Campbell. Sir, again, I have no restrictions on 
providing force protection----
    Senator Cotton. Well, you only have 9,800 troops there, 
right?
    General Campbell. We're authorized 9,800, yes, sir.
    Senator Cotton. If you were to reduce from 9,800 to 5,500, 
or even lower than that, might we be more likely to see 
something like this happen once again in the future because the 
next commander, General Nicholson, is constrained in the 
resources he has and the way he can employ those resources?
    General Campbell. Sir, there is no restraint on force 
protection. So, I think General Nicholson, before he would 
allow soldiers to go out and do a train-advise-assist mission 
with the Special Operating Forces, he and the commanders on the 
ground would make sure they had all the necessary requirements 
there to do that, as they did, I'm sure, in this case here.
    Senator Cotton. So, the--but, the way they were----
    General Campbell. I don't see the number--I don't see the 
tie between that number----
    Senator Cotton. So--but, the way the restraint might play 
out then is a limitation on the kind of missions they can 
conduct if they don't have the resources to support the force 
protection in the CASEVAC for those missions. Is that fair to 
say?
    General Campbell. What's fair to say is, I would not let 
them go out on a mission unless we have the right CASEVAC, 
unless we had the right Quick Reaction Force. No, sir.
    Senator Cotton. Which necessarily means that some missions 
may not be able to be accomplished.
    General Campbell. We work within the resources we have. 
Yes, sir.
    Senator Cotton. Well, thank you very much, again, for your 
service. I know you've been a commanding general of the 
Screaming Eagles. It came to our attention at his confirmation 
hearing that General Nicholson had never served there. He had 
only served in the 82nd. I hope that he can overcome this 
deficiency in his background. I do understand he once served 
under 101st Headquarters at--in Afghanistan, so maybe if you 
leave the combat patch in your desk, he'll get--hit the ground 
running.
    General Campbell. Sir, I'll do that. I also have three 
tours in the 82nd, sir, so I've got a great affinity for the 
82nd.
    Senator Cotton. You capped it off at the 101st Air Assault.
    General Campbell. I did. Thanks, sir.
    Chairman McCain. Thank you, Senator Cotton, for that 
summary of General Campbell's career. We appreciate it very 
much.
    [Laughter.]
    Chairman McCain. Senator King.
    Senator King. General Campbell, you had a narrow escape, a 
few minutes ago, when the Chairman asked for unanimous consent 
to move that nomination. I almost objected, not because of any 
reservations about General Nicholson, but about my extreme 
admiration for you and my desire to keep you there. So, you--
we--I'm thinking of introducing a resolution forbidding your 
retirement, but----
    General Campbell. Sir, you'll have to deal with Mrs. 
Campbell----
    Senator King. Yeah, thank you. I----
    General Campbell. That's what I'd say.
    Senator King. I appreciate that.
    We've been talking around an issue today that's really 
troubling to me. I can't understand any good reason to announce 
in advance to an enemy that you're going to reduce your troop 
levels. I just can't--I can't--if I were the Taliban, I'd say, 
``Okay, fellows, let's go to Acapulco for 6 months, and we'll 
come back in the fall, when the Americans are no longer going 
to be doing anything but counterterrorism.'' Why--I--help me 
with this.
    First--and you've been very diplomatic this morning--but, 
first, isn't it true that in order to go to the 5,500, which is 
a fundamental change of mission--as you've testified this 
morning, it's a change of mission from train-and-assist and 
counterterrorism to almost entirely counterterrorism. When does 
that change of--that qualitative change have to start? It's not 
January 1st of 2017. Isn't it sometime late this summer, early 
fall?
    General Campbell. Sir, again, it--you know, it becomes 
physics, at some point in time, on how you can move forces out 
responsibly and safely. I would like to keep--and I--my 
recommendation to General Nicholson will be to keep 9,800 as 
long as you can during the most violent part of the fighting 
season, which is the summer. So, probably in the October 
timeframe, they'd have to really work hard to make sure they 
got down to the right number if they continue on the path to go 
to 5,500.
    Senator King. You've been so diplomatic in your testimony 
this morning. In your professional military opinion, does it 
make any sense to announce to an enemy that you're going to 
reduce your--not only your troop level, but your mission, 
particularly as it pertains to them, in advance? I just don't--
I do understand trying to motivate the Afghans to understand 
that they can't rely on us forever. That's the one policy I do 
understand. It's countervailed, it seems to me, by the signal 
it sends to the enemy that all they've got to do is wait for 6 
or 8 months or a year.
    General Campbell. Sir, I'd--you know, again, this is a 
policy decision, not a military decision. The announcement is--
--
    Senator King. I'm asking a military man. As a general, you 
would not put a bulletin out the day before a battle, saying, 
``We're going to fight you guys like hell until midnight, but 
then we're going to withdraw our troops.''
    General Campbell. Sir, any military leader would want to 
keep all the advantage to him, not provide any advantage to the 
enemy.
    Senator King. I'll take that as a----
    General Campbell. Sir, I'm not trying to be diplomatic.
    Senator King. No, I understand.
    General Campbell. What I'm trying to tell you is that, you 
know, any guy on the ground, any military commander, is going 
to want to have as many resources as he can, as many soldiers 
as he can, and he's going to want to accomplish the mission. At 
the same time--what I'm trying to do here--and I'm not trying 
to be disrespectful--what I'm trying to do is make sure that I 
provide my military leadership the opportunity to make those 
judgments and pass that to our political leadership, and not 
debate it in open, because I think that hurts us, as well. I 
think that--that gives the enemy an advantage and non-
advantage. What I'm trying to say--just as Senator McCain said, 
it isn't about numbers; it is about the capability. Right now, 
where we were to where we are with Bagram, Jalalabad, 
Kandahar----
    Senator King. We're way ahead of where we were a year ago.
    General Campbell. We have options now. I think we ought to 
take advantage of those options as we move forward.
    Senator King. I completely agree. I just--I'm--as you can 
tell, I have real reservations about the policy.
    General Campbell. Announcing numbers provides the enemy, 
maybe in their mind, that they can wait us out.
    Senator King. Bingo.
    Close air support. One of the asymmetric advantages we have 
is airpower. You testified this morning about the limitations 
on Afghan airpower and how long it's going to take. Wouldn't it 
make sense for us to maintain--forget about all the other 
missions we're talking about, but to maintain a close-air-
support capability without the limitations, necessarily, that 
we have now for some longer period of time? Wouldn't that be a 
tremendous advantage to the Afghan Security Forces?
    General Campbell. Sir, you can give me all the resources 
you want and all the people. If you don't have the authorities, 
you've got a mismatch. Or we can have----
    Senator King. I can----
    General Campbell.--all the authorities you want, and if you 
don't have the right resources--so, you've got to--we've got to 
have that balance, absolutely.
    Senator King. I'm talking about resources and authorities. 
That--what I'm asking is--close air support would be a 
significant advantage to the Afghan Security Forces if we had 
the resources and the authority.
    General Campbell. Sir, the close air support has been the--
has been the one resource in the capability that the Afghans 
have asked me for every single day. Again, a couple of years 
ago, 150 attack helicopters, two squadrons, air force. When we 
started Resolute Support, they were down to five MI-35s. They 
have zero at the end of the fighting season. They just picked 
up three because India passed those on to them. That'll make--
that'll really help.
    Yeah, they desire that. We would have to work TTPs, have 
the right authorities to provide the right assistance on the 
ground for them.
    Senator King. I would hope that, in your final 
recommendations as you're--in your exit interview, if you 
will--that you would emphasize the importance of that----
    General Campbell. Sir, I absolutely will.
    Senator King. Thank you. Thank you again for your service, 
General.
    General Campbell. Thank you, sir.
    Chairman McCain. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    General, thank you for your service, and thank you to your 
family for sticking with you and working through this marvelous 
career, and, at the same time, all of the sacrifice that you've 
made is most certainly a sacrifice which they have endured with 
you, and I appreciate that.
    General, last time that you were here, we had asked you for 
some specific responses to what had happened in Kunduz with the 
very unfortunate incident where a hospital was attacked. I want 
to thank you for having a--in a timely fashion, to having 
responded to our request and providing a very good answer to 
our questions. It is appreciated.
    Also, I just--I know that you've already talked about this 
somewhat with Senator Blumenthal, but I'd like to give you the 
opportunity to perhaps specifically work in with regard to 
governance and the challenges there. We know that ultimately 
effective governance will be required for the counterinsurgency 
effort to succeed. To what extent has effective governance 
evolved during your time in Afghanistan? How do you see the 
relationship between the effective governance and the U.S. 
troop level that should remain?
    Let me preface the question with this. In October, when we 
came and you had the opportunity to show us kind of what you 
were doing and how you were working with this government, this 
Unity Government, was at the same time that the announcement 
was that we would maintain 10,000 and eventually have to come 
down to 5,500. I got the impression that it was because of the 
governance and the capabilities that were there that we were 
even considering doing that. Yet, at the same time, it seemed 
to be reported that this was there because of the incompetence 
of the Afghans rather than because we could see progress being 
made.
    I'd like you to have the opportunity to comment on that and 
get your thoughts.
    General Campbell. Sir, thanks for the question. Several 
years ago, when I was there before, sir, we had Provincial 
Reconstruction Teams, PRTs, we had an influx of civilians that 
would help at district levels, and we had prioritized 
districts. We tried to help build the Afghan capability all the 
way down to the district level. You could see the services that 
were provided to the people of those districts and provinces 
continue to rise. We've gone away from PRTs over the last 
several years, as we believe that the Afghans could pick that 
up, themselves.
    For me, again, even on the governance side, it's about 
leadership, it's about having the right people in the right 
position, and giving them the authority, and then holding them 
accountable. President Ghani and Dr. Abdullah are trying to do 
that. You know, it starts with governors of the 34 provinces, 
and picking the right folks there. Then it goes down to the 
407-plus districts, and having the right people there. If you 
have the right people and you don't fill out the staffs, they 
don't have the budget--I mean, that--so, it's a hard process. I 
do see them getting after it.
    I sit right next to the--I do to the National Security 
Council meetings with the--that President Ghani allows me to go 
to once a week, 3 or 4 hours at a chunk--right next to me is 
the IDLG, which is--works through all the governance. He and I 
have many conversations as he tries to work after getting the 
right people in place to really start that. They reach out to 
many other countries to help them in different ways, to have 
programs that help build their governance capability.
    From a military standpoint, all I do, really, sir, is work 
to help build the security forces so they can provide security 
down to those districts that would embolden the governance to 
take shape.
    Senator Rounds. General, right now you have the option of 
maintaining 9,800 or so troops. I know that you have a 
responsibility. You've been directed that you must get that 
down to approximately 5,500 by the end of the year. If the 
current plan is allowed in place, how long can you maintain the 
adequate levels for both the counterinsurgency and the training 
mission, which I know you believe in--how long can you maintain 
the higher number until you have to start drawing down in order 
to meet the obligation that you've been given?
    General Campbell. Sir, we're working through, and we'll 
have very detailed plans that show that glide slope. My opinion 
right now is, I'm going to try to keep 9,800--recommend to 
General Nicholson to keep 9,800 all the way through most of the 
fighting season, but, at some point, as I said before, it 
becomes physics, and you have to get people out of different 
areas and bring them in. That's a--we've done that over the 
years, from 100,000-plus to where we are today. So, we have a 
very methodical, well-thought-out process. Our logisticians are 
the best in the world to be able to get that done.
    Senator Rounds. Your goal is to maintain as many as 
possible for as long as possible, just in case there may be a 
change in heart with regard to what we need there. Would that 
be fair to say, sir?
    General Campbell. Sir, I'm going to try to keep as many as 
I can, as long as I can. Understand I have an order to get down 
to----
    Senator Rounds. Yes, sir. I appreciate that.
    Thank you once again for your service and for your answers 
today, sir.
    General Campbell. Thank you, sir.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    I add my thanks, General, to you and your family for your 
years of service to our country.
    In the series of questions and your responses regarding 
what is the appropriate number of United States forces in 
Afghanistan, part of the assessment from your testimony is that 
we need to assess the capability of the Afghan--Afghani 
military to protect themselves. So, I know that--in your 
testimony, that you assess that at least 70 percent of the 
problems facing the Afghan Security Forces results from poor 
leadership, and that there are some positive changes occurring 
with regard to replacing the poor leadership, which I assume is 
poor leadership in the Afghan military. That's what you're 
referring to, right?
    General Campbell. Yes, ma'am.
    Senator Hirono. Military. So, the army has replaced 92 
general officers, which I assume is a positive change that was 
made.
    General Campbell. Ma'am, for the most part, those were all 
very positive changes. That's happened just probably in the 
last 3 months.
    Senator Hirono. So, I don't know out of how many general 
officers--how many more general officers do you think needs to 
be replaced in order to strengthen the capability of the Afghan 
army?
    General Campbell. Ma'am, on the MOD side, on the army side, 
I think we're down to very few. There's a couple of key 
positions that the Minister of Defense is taking a look at that 
I know that he wants to change out, that I would concur with 
him.
    Senator Hirono. Although----
    General Campbell. I think more--we've got to get to the MOI 
side, on the police side. We have not made very many changes on 
the police side. I think that's really where we have to go 
next.
    Senator Hirono. So, that's what you were referring to when 
you said, ``These changes will take time.'' It's on the police 
side, military police side.
    General Campbell. Yes, ma'am.
    Senator Hirono. Not necessarily----
    General Campbell. I mean, the future of both the army and 
the police are the great young leaders they have today--the 
captains, majors. They're building their noncommissioned 
officer corps. They have folks who have been trained in the 
United States, the U.K., Germany, other places. We've got to 
continue to put them in the right leadership positions. I think 
that's the hope, that's the future of their security force.
    Senator Hirono. So, what kind of factors will need to be in 
place to ensure that these kinds of leadership changes continue 
to occur in Afghanistan?
    General Campbell. Ma'am, you have to have leaders of 
courage that want to make those decisions based on merit, based 
on standards, not based on patronage. You have that in the 
National Unity Government.
    Senator Hirono. So, you need political leaders with that 
kind of perspective, as well as military leaders. That kind 
of----
    General Campbell. You do, ma'am, because the general 
officers, for sure, the two-, three-, and four-stars, are 
picked by the political leadership. Below, the one-star, it 
really is with--inside the Ministry of Defense, but that's also 
political leadership.
    Senator Hirono. So, since the changing leadership is such a 
critical part of assessing--it's going to have an impact on 
what would be an appropriate number of U.S. forces, what is the 
length of time, do you see, of--that would be necessary for 
these kinds of changes to occur in Afghanistan?
    General Campbell. Ma'am, I would hope that they would make 
all the critical ones prior to this summer fighting season, so 
they can get those in place and have a better opportunity to 
change the dynamic of 2016 verse 2015. So, I would hope they 
could make most of those here very quickly.
    Senator Hirono. So, that's very positive.
    I know that we use--turning to conditionalities when it 
comes to the distribution of our aid and resources in 
Afghanistan--one of the areas of conditionality involves 
women's rights in Afghanistan. What progress has the Afghan 
Government made with regard to women's rights? Can you express 
your thoughts on that----
    General Campbell. Yes, ma'am. Thank----
    Senator Hirono.--point?
    General Campbell.--you for the question. I mean, they're 
doing much better in the MOI and the police than they are in 
the army. They're working both, but they're--there's 
institutional challenges on the army side to recruit women, 
because the army is a national force, and I think the women 
want to join and stay where they grew up. The police, they can 
do that. The army, they usually can't. So, they're working 
around that. They've done, actually, again, quite good on 
police side, of encouraging women to join, sending them to 
Jordan and other--Turkey--to get schooling, and then bringing 
them back in. The money that has been appropriated from our 
Congress specifically towards women issues, I think, has 
encouraged many to continue to join. We'll continue to push. 
President Ghani has talked about this. Dr. Abdullah's talked 
about it. They just have to continue to implement.
    Senator Hirono. So, do you think we should increase the 
direct funding that we provide to the women who want to be a 
part of, you know, what Afghanistan needs to do?
    General Campbell. Ma'am, I think right now we're very good 
on where we're at on the funding. I think the numbers that 
we're at are fine for where we're at. I think what we've done 
differently here the last year or so is, in the past, we would 
take that money and say, ``Hey, they need this or they need 
that,'' not really understanding what the women of Afghanistan 
really needed. Now what we've done is bring them into the 
process. We have a Women's Advisory Committee, that I chair 
along with Ms. Ghani, that helps us determine some of those 
pieces. We take their feedback more now, which makes us be more 
efficient with the money we have.
    Senator Hirono. That makes a lot of sense.
    Thank you, Mr. Chairman.
    General Campbell. Thank you, ma'am.
    Chairman McCain. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    General Campbell, thank you for being here, for your 
service. I have to say that, when I visited Afghanistan last 
year, I came away inspired by the morale on the ground and by 
their utmost confidence in your leadership and the leadership 
of your team. So, thank you.
    A quick question. I know you've been pummeled on the troop 
levels. Can you at least concur that, at the time the decision 
was made to go to a Kabul-centric 1,000-person footprint, that 
that in no way reflected the force needs that we had in--based 
on the conditions on the ground?
    General Campbell. Sir, I don't know when the 1,000 Kabul-
centric was made, tell you the truth. I wasn't there.
    Senator Tillis. When the policy decision was made, I mean, 
what--can you imagine any time, whether you were there or not, 
that that made sense, based on the conditions on the ground?
    General Campbell. Sir, the 1,000 Kabul-centric, you know, 
limits what you can do----
    Senator Tillis. Yeah, just----
    General Campbell.--no CT with that 1,000. So, I believe we 
need a CT mission, going forward, to protect our Homeland----
    Senator Tillis. Yeah.
    General Campbell.--to build the Afghan capability. So, I--
--
    Senator Tillis. It just seems to me that that was a--that 
that policy decision, which at one point was made, could not 
have possibly been based on any on-the-ground assessment of 
what we needed to do there.
    To move on, I want to talk about something else that I 
mentioned in General Nicholson's hearing last week, and it's 
something that I picked up on when you briefed us last year. 
That has to do with something that's really outside of your 
lane, but very important. That's the economic assistance. You 
discussed, in the hearing last year, about the tail in 2017 and 
the need to sustain funding well beyond that. To what extent do 
you think our apparent reduction in force influences the 
investments that are made by other partners in the region, and 
potentially puts that at risk?
    General Campbell. Sir, again, I can only speculate on that, 
but I would--I know for sure that our forces going down have 
take--have hurt the economy of Afghanistan. They were very 
dependent upon a lot of the influx of money that was provided 
based on the number of forces from the coalition, especially in 
the transportation arena and the services. So, as we've come 
down, I'm sure that's had a negative effect on----
    Senator Tillis. Do you think that the change--in your 
testimony, you talked about how the Taliban have changed their 
strategies, they've extended the fighting season--do you think 
that a reduction in that economic assistance, the continued 
changes in the Taliban could have a negative impact, in terms 
of the conditions on the ground and stress a 5,500 troop level?
    General Campbell. Sir, I think----
    Senator Tillis. Our risk assessment, likelihood of that 
actually stressing those levels.
    General Campbell. Yeah, I'm not sure it would have an 
impact on the number, sir, but what it would do would--it would 
give the Taliban, you know, the opportunity to use that against 
the National Unity Government, against the coalition.
    Senator Tillis. As we retreat to a strictly 
counterterrorism role and the army--the Afghan army and the 
police continue to deal with the counterinsurgency, how would 
you assess their ability, as it exists today with 9,800 troops 
on the ground, and their ability of--let's say, their ability 
now is at--on a scale--a random scale of 1 to 10; and let's say 
they're an 8 now with our train-advise-and-assist capability--
it's going to be reduced, obviously, with our withdrawal back 
to purely counterterrorism--how, on that scale--does it stay 
the same? Is it appreciably lower, in terms of their ability to 
take the fight to the Taliban without our train-advise-and-
assist capabilities?
    General Campbell. Sir, you're not going to like the answer, 
but it depends. So, if I can give you--if I can give you an 
example. You know, we've only been doing train, advise, assist 
at the corps level on four of the six corps, two that we came 
off of. The 203rd Corps in Ghazni and the 215th Corps in 
Helmand were two that we didn't have advisors there all the 
time. The 203rd Corps, over the last fighting season, led--
because of the leadership of General Yaftali, the corps 
commander, has actually done pretty well. We haven't had to 
provide a lot of other advisors to them over this past fighting 
season. The 215th, completely different story. It's because of 
the leadership, but also because of the threat and the fight 
they had down in Helmand. I've had to apply more resources, and 
I've made Helmand the main effort for not only our advisors, 
but also the Afghans have made that their main effort over the 
winter campaign, to build the 215th back up.
    So, again, I think it does have a lot to do with 
leadership. Again, they value any advising they can get. 
President Ghani welcomes all of our nations. He welcomes to 
continue to professionalize both the army and the police. He 
knows that he needs the United States to lead to do that.
    Senator Tillis. Well, General Campbell, I would maybe close 
with just a comment, but I will tell you, when we met there, 
and we met--we went to the forward operating base--we met with 
the Afghan general there. It was very clear to me what a 
confidence-builder your presence was there, and an inspiration 
for their troops just to execute at a higher level. It seems to 
me, as someone who's not served in the military, that that 
reduction--there's going to be some proportionate reduction in 
their confidence. As they're gaining their capabilities, there 
was no doubt in my mind, when that general looked over to you 
and your team and talked about what great mentors you were, 
that's a loss that they're going to feel. Hopefully the 
conditions on the ground will not change to a point to where we 
ultimately have to rebuild and go back in.
    The last thing I want to tell you is, thank you for your 
service. I want you to seriously consider at least a retirement 
home near your 82nd Airborne folks, down Pinehurst. There's a 
golf course that I think's really going to gain some notoriety 
there that you may want to consider coming and spending time. A 
man of your stature, we would greatly welcome back to North 
Carolina. Thank you for your service.
    General Campbell. Sir, I am looking at that. Thank you.
    Senator Reed [presiding]. On behalf of the Chairman, let me 
recognize Senator Sullivan.
    Thank you, Senator Tillis.
    Senator Sullivan. Thank you, Mr. Chairman.
    General, you probably know that a lot of members of the 
Army also retire in Alaska, so I want to make sure you keep 
that option open, too.
    [Laughter.]
    Senator Sullivan. We don't have good--we don't have such 
great golfing, but we have better hunting and fishing than 
North Carolina.
    General Campbell. Yes, sir.
    Senator Sullivan. So, I hope you keep that--keep an open 
mind on that.
    Like all the other members of the committee, I want to 
thank you for your service--exemplary service. Not only to you, 
but your family, as well. Because, as you know, families serve 
when their members are serving. Just want to thank the whole 
clan for your decades of service.
    I wanted to follow on the question that Senator King 
raised. I'm just asking your view on it, because I think 
sometimes we actually--certainly I do--get a little confused on 
the difference when we have members of the military testifying 
in front of this committee--you broke down the difference 
between what you called a policy decision versus a military 
decision. To me, I'm not sure there's such a clear dichotomy. 
So, how do you think we should be thinking about those issues?
    Let me give you an example. Is the--was the troop-strength 
decision a military decision, or was it a policy decision, or 
did you bring a military decision to the civilian leaders and 
they came up with a different policy decision? How--I'm not 
clear what you meant by the distinction. I'm not 100 percent 
sure there's a fine, you know, bright line between the two.
    General Campbell. Sir, thanks for the question. Sir, what I 
would tell you is that, you know, the military has an 
opportunity to provide its best military advice. When we look 
at, as Senator McCain talked about earlier, the requirements 
and the capabilities required to accomplish a mission that 
you've been given by your senior leadership--in this case, the 
President of the United States--and so, we take many 
different--we take some assumptions of that plan, and we work 
through that. Usually there's three or four different courses 
of action. The 5,500 is probably one of those different courses 
of action.
    What I can't get into, sir, is all the giving back and--
going back and forth and taking a look at that from--both from 
a military perspective and then as you engage with the 
interagency, because there's--you know, there--what we look at 
is risk to force and risk to mission. So, you know, the 
military absolutely has the responsibility to provide, you 
know, what it thinks is necessary to accomplish the mission, 
but there are also outside factors that tie into that, that we 
have to understand. If some of those come in and adjust the 
capability or the requirements that you need there, then what 
we're required to do is go back and say, ``Okay, we can still 
do the mission, but the risks may be higher, or the risk goes 
down.'' That's how I think we----
    Senator Sullivan. Well, your military decision in this case 
was the COAs that you provided on troop strengths that came 
with certain risks, depending on what the COA was. The policy 
decision was ultimately the decision chosen by the President to 
go with 5,500? Is that a good way to think about it?
    General Campbell. Well, sir, I think, again, that the 
decision--ultimately, the President makes the decision, and 
that's the policy that we follow. There's a lot of give-and-
take as we go through there, and I--and we have the 
opportunity, at all different levels, to provide our input. 
Sometime the input is taken, sometime it's not taken. I think 
that's part of the process as we move through there. I think 
we've learned many of those lessons over the--over several 
years, of how we work within this process to do that. I'm very 
proud that, you know, we have great leaders, like Joe Dunford 
and others--General Dempsey and others that have been--that 
have helped us get through this process.
    We absolutely have to provide our input. If we can't live 
with that, you know, if there's something we can't live with, 
then we have to say so.
    Senator Sullivan. Right.
    General Campbell. Then----
    Senator Sullivan. Okay.
    General Campbell. We follow orders, sir. You follow----
    Senator Sullivan. I know.
    General Campbell.--the last orders first, and----
    Senator Sullivan. I appreciate that.
    General Campbell.--if you can't live with it, if it's not 
immoral, it's not illegal--all right?--then you've got to do 
the best of your ability to make sure that you can accomplish 
the mission.
    Senator Sullivan. Let me ask you another question on the 
safe haven issue on the border between Afghanistan and 
Pakistan. Is that solvable? If it's not solvable, do we have a 
perpetual problem with the Taliban, with the Haqqani Network, 
with al Qaeda? I mean, how should we be thinking about that? 
Because it doesn't seem like that looks like it's going away 
anytime soon. It certainly has had to be an enormous 
frustration for you, to have a--be ready for a fighting season 
and then know that some of the enemies that we and the Afghan 
army were battling go to the other side of the border, train, 
equip, rest, and then come back at us. How should we think 
about that issue, which seems to not get as much attention as 
it deserves, but, in my view, seems to be one of the most 
critical issues we face in the entire region?
    General Campbell. Sir, thanks. Again, I think we have to 
continue to work with Pakistan. Pakistan and Afghanistan have 
got to work together. They've got to talk military-to-military 
on how they can get after a common enemy that knows no border, 
knows no boundaries. Transnational terrorism does that. 
Pakistan and Afghanistan have a lot of ungoverned space. This 
is going to be a problem for years and years and years. This is 
a--the terrorism piece is a generational issue.
    The one way that we can get after it is to continue to 
build upon the capability of the Afghan forces to fight this 
enemy. I believe we're always going to need a CT presence of 
some sort as we continue to build their presence, to keep 
pressure on so that we don't allow this transnational terrorism 
to come to the Homeland of the United States.
    Senator Sullivan. If I may, Mr. Chairman, I know my time's 
up, but, seeing that I'm the----
    Senator Reed. Go ahead.
    Senator Sullivan. Thank you.
    I just want to follow up on the last point you made. One of 
the things that I think is important for our military leaders, 
civilian leaders, Members of Congress, is--make sure that we're 
having a discussion, not only in these kind of settings, but 
with the American people on what--the challenges that we face, 
what the--the cold truth on some of the challenges that we 
face. Because, I think, when we do that, you have better 
policy, you have better support, ultimately, from the American 
people, which is fundamentally critical to any successful 
policy.
    So, let me just ask a final followup. You talk about a 
generational struggle. General Abizaid has talked about ``the 
long war.'' You've had experience battling the long war for 
quite some time now. You know, one of the things that I think 
where the President hasn't really leveled with the American 
people is when we talk about, ``Well, we're--we've ended combat 
operations in Afghanistan.''
    The CT mission is clearly a combat operation. We've had 
soldiers, unfortunately, killed recently. Could you talk about 
how we, again, should be thinking about this issue of what you 
term ``generational struggle,'' General Abizaid's talked about 
``the long war"--you know, there's different models here, and 
some people talk about Korea, some people talk about Germany--
what's the historical analogy that we should be trying to think 
about with regard to our troop presence in Afghanistan or other 
regions where the threat of transnational terrorism is not 
going away next year, it's not going away 2 years from now, 
it's probably not going away in 5 years? How should we be 
thinking about that, from a policy perspective, but also in 
terms of leveling with the American people?
    General Campbell. Sir, thanks.
    Again, I do believe that--you know, that transnational 
terrorism, the--it's a global threat. You know, 9/11 changed 
our lives forever. I think we're very fortunate that the men 
and women of our country, for the most part, you know, don't 
worry about a lot of it now, because they have great men and 
women, less than one-half of 1 percent, that continue to serve 
willingly, voluntarily, to do what they can to make sure that 
they--that they're safe. It's good that our----
    Senator Sullivan. Are on offense in many parts of the 
world.
    General Campbell. Absolutely. So--but, again, there are 
going to continue to be bad people who want to do bad things to 
the United States and our way of life, and we shouldn't try to 
hide that. That's going to be out there. So, we ought to do 
everything we can to continue to have the very best military in 
the world that we can, the strongest military. We're dependent 
upon Congress to provide us the money to be able to do that. We 
appreciate that great support. It's going to take a global 
effort. The U.S. can't do all this by itself. It's going to 
continue to take a global effort as we move forward. I think 
we've got to talk in those kind of terms.
    It'll be hard to take a model like Germany or Korea or 
Japan or something like that, to say, ``Hey, we're going to 
continue 30,000.'' You know, I don't think we're in that case. 
Technology--you know, the--has changed the world we live in, so 
I think there's other ways to get after this. Bottom line is, 
we're going to have to continue to keep pressure on it. The way 
you do that is, continue to provide the right equipment, the 
right training, and the right leadership for the men and women 
who volunteer to serve our country. Once you neglect them, then 
we're in trouble.
    After 37 years of begin in the--almost 37 years of being in 
the Army, with my son, who I talked about the other day, who's 
at Fort Hood, Texas, so I haven't seen since August of 2014, in 
Jalalabad, on his second tour, who's getting ready to go on his 
third tour. If I didn't think this was important--what I said 
the other day is, I'd tell him to get out of the Army. I 
absolutely think it's important, and I think people need to go 
find ways that they can serve our country. The military is one 
way, and it's been very good to me.
    Again, sir, it's a global thing. We're going to have to 
stay on it. It's going to take continued leadership from the 
United States. That's the only way I see it going in the 
future.
    Senator Sullivan. Well, General, thank you again for your 
exceptional service to our country, and your son, and for that 
very wise wrap-up.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Sullivan.
    In behalf of the Chairman, I will thank you again for your 
testimony, for your extraordinary service to the Nation, to the 
Army, and for your testimony this morning.
    With that, the hearing is adjourned.
    [Whereupon, at 12:01 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
                            afghan districts
    Senator McCain. In your testimony you stated ``. . . as of last 
week, the units we have on the ground throughout the country report 
that of the 407 district centers, 8 (or 2 percent) are under insurgent 
control. We assess that another 18 (or 4 percent) are under what we 
call insurgent influence. Often, these district centers are in remote 
and sparsely populated areas that security forces are not able to 
access very often in force. Additionally, at any given time there may 
be up to 94 district centers (around 23 percent) that we view as ``at 
risk.''

    1. Please name the district centers that you assess are under 
insurgent control, influence, and at risk. Please also provide 
definitions for the terms ``control,'' ``influence,'' and ``at risk.''
    General Campbell. [Deleted.]
                               __________
             Questions Submitted by Senator Roger F. Wicker
                upcoming transition to general nicholson
    Senator Wicker. I am sure you have given lots of thought to what 
has been accomplished during your time in Afghanistan and what you will 
hope to see from a well-deserved CONUS vantage point after you finally 
come home.

    2. What are some ways in which you would like to see the Afghans 
continue to make tactical and operational progress in 2016?
    General Campbell. GIRoA and the ANDSF must operationalize the 
sustainable security strategy that we have developed in close 
coordination with the Afghan leadership. It emphasizes a fight-hold-
disrupt construct that will adjust the force alignment of the Afghan 
army and police. GIRoA should apply this concept by prioritizing key 
terrain to posture and utilize the ANDSF effectively and efficiently. 
Implementation of this strategy has begun, but it will be an ongoing 
effort into 2017 and beyond. In 2016, I would like to see the ANDSF 
progress by reducing the number of static checkpoints, improving 
leadership, effectively utilizing organic CAS (A-29s) and key mobility 
platforms, while improving logistics management.
    I'm also interested in your views regarding our long term 
involvement in Afghanistan. There are many on both sides of the issue: 
Some argue for a limited United States commitment with an expiration 
date, and some see this as a persistent conflict that will require a 
sustained partnership with a small United States combat and advisory 
capability in Afghanistan for the forseable future.

    3. Senator Wicker. What has been your recommendation to your 
leadership? Do you think our intent is understood amongst the Afghani 
people and makes a difference to them? To the Taliban?
    General Campbell. My recommendation is for a long-term commitment 
to Afghanistan from the US, NATO, and Coalition nations. We must move 
beyond a year to year mentality and began looking at Afghanistan from a 
multi-year perspective. I have recommended to my chain of command that 
we begin a five year outlook. With a continued relatively modest 
investment we can secure our vital national interests in the region and 
help protect our Homeland.
    Unfortunately, our intent is not widely understood by the Afghan 
people. Far too often a single bad news story overshadows ten good news 
stories and many people just have not heard the United States' current 
intent to extend our commitment. However, those that have heard are 
supportive and thankful for our continued presence. Our intent 
absolutely makes a difference in not just their day-to-day outlook, but 
their prospects for a successful future as well. As for the Taliban, 
with our continued support of the Afghan Government and the Afghan 
National Defense and Security Forces, they most certainly understand 
our intent. Following the Taliban's loss in Kunduz, and the difficult 
fight they are facing in Helmand (along with increased train, advise, 
and assist support from the Coalition), our continued presence and 
support is having a definite effect on the them as well.
                                pakistan
    Senator Wicker. I would like to ask some brief questions about 
Pakistan--a partner in the region with whom we have a complex 
relationship.
    First, let me touch on the increasingly positive working 
relationship between Afghanistan and Pakistan:
    One such example is President Ghani's call to Pakistan Prime 
Minister Sharif to condemn the Taliban attack on Badaber Air Base in 
Pakistan last year. According to press reports, President Ghani told 
Prime Minister Sharif that Afghanistan will ``never allow its land to 
be used against Pakistan by anyone.''

    4. What is your assessment of the relationship between Afghanistan 
and Pakistan now? Has the relationship improved during your time in 
Afghanistan?
    General Campbell. [Deleted]

    Senator Wicker. Second, let me ask you about terrorist groups that 
operate in and out of Pakistan:
    The Haqqani network maintains a safe haven in North Waziristan, 
Pakistan, across Afghanistan's southeastern border. The Institute for 
the Study of War (Fred Kagan) refers to this Pakistani Taiban terrorist 
group as one that ``has the backing of elements within the Pakistani 
security establishment.''

    5. How would you assess the current state of the Haqqani network?
    General Campbell. [Deleted.]

    6. Senator Wicker. Are the Pakistanis doing enough against the 
Haqqani Network in your opinion? What more should they be doing?
    General Campbell. [Deleted.]

    7. Senator Wicker. Has the level of cooperation between you and 
your counterparts in the Pakistan security apparatus improved during 
your time as Commander? How should your successor enhance cooperation 
with Pakistan?
    General Campbell. [Deleted]
                               __________
              Questions Submitted by Senator Kelly Ayotte
 afghan challenges and capability gaps--number of united states troops 
                             in afghanistan
    Senator Ayotte. You have noted that ``budgeting, force generation, 
personnel management, and national level maintenance, logistics and 
procurement'' remain challenges for them. You also said that 
``Capability gaps still exist in fixed and rotary-wing aviation, 
combined arms operations, intelligence collection and dissemination, 
and maintenance [as well as] close air support.''

    8. Do you believe those challenges will be fixed and those 
capability gaps will be resolved in the next year?
    General Campbell. We are committed to developing a sustainable, 
effective, and affordable ANDSF through increased financial discipline, 
financial oversight, and policy adherence. In the past year we have 
placed conditions-based financial controls, are developing improved 
personnel and pay systems, and continue to fight corruption. The ANDSF 
are increasing effectiveness in employment, sustainment, and strategic 
management of enablers, but still depend on the Coalition and US. For 
example their demand for CAS and CASEVAC exceeds organic capability. 
They will still not have independent and organic capability in 2017--
they must field material and systems, but must also build sustainment 
programs and the human capital to employ these capability, which takes 
several years.

    9. Senator Ayotte. In your professional military judgment, will 
reducing the U.S. military presence from 9,800 to 5,500 service members 
make it easier or harder to address those challenges and capability 
gaps?
    General Campbell. Reducing from 9,800 to 5,500 will make it harder 
to address Afghan National Defense and Security Forces' challenges and 
capability gaps. These shortfalls are best addressed through train, 
advise, and assist (TAA) efforts. Our ability to conduct TAA operations 
at the 5,500 force management level (FML) is limited to the national/
ministerial level in the Afghan Security Institutions, and down to the 
tactical level only with the Afghan Air Force and the Afghan Special 
Security Forces. This FML does not allow for continued TAA to address 
challenges at the corps level within the conventional ANDSF.
                     never contract with the enemy
    10. Senator Ayotte. Have the Never Contracting with the Enemy 
Provisions been helpful in improving vetting and keeping our tax 
dollars out of the hands of our enemies?
    General Campbell. Yes. Section 841 provisions, combined with the 
vendor vetting processes outlined in USFOR-A vendor vetting orders, 
have improved our visibility of entities actively opposing US and 
Coalition forces enabling contracting agencies to terminate or deny 
awarding of contracts and for commander's to deny those vendors access 
to US and Coalition personnel, installations, and/or equipment. To 
date, more than 2,100 vendors have been denied contracts by Department 
of Defense contracting agencies because the vetting process determined 
those vendors posed a high force protection threat to troops and/or 
funneling money to the enemy. Task Force 2010, USCENTCOM's Vendor 
Vetting organization, is working with OSD to provide new NDAA language 
that further supports the vendor vetting program. Due to Task Force 
2010's proactive approach, which focuses on preventing covered entities 
from receiving contracts, no companies in 2015 were recommended for 
Section 841 designation.

    11. Senator Ayotte. Since it became law, how many contracts and 
subcontracts have been terminated and how much money has been kept out 
of the hands of our enemies utilizing the Never Contracting with the 
Enemy provision?
    General Campbell. To date, over 8,100 vendors have been vetted and 
26% of them, over 2,100, were denied contracts due to their assessment 
as posing a high risk to troops or providing money to the enemy. Under 
Section 841 of the NDAA, 112 entities have been identified and 
prohibited from receiving government contracts safeguarding over $47 
million in contracting funds. No companies or entities have been 
identified for termination under FY 15 NDAA Section 841 due to the 
proactive vendor vetting process used by Task Force 2010 and the 
absence of a specified designation authority.

    12. Senator Ayotte. According to the National Defense Authorization 
Act, the next report on the use of these authorities is due on March 1 
of this year
    In anticipation of submitting this report, has your command 
provided this information to CENTCOM for Afghanistan?
    General Campbell. Yes. The required information was provided to 
CENTCOM in January 2016.

    13. Senator Ayotte. Do you expect the report to be on time and 
complete?
    General Campbell. Yes. I expect CENTCOM to submit the complete 
report on time.
                               __________
               Questions Submitted by Senator Tom Cotton
                       contractors in afghanistan
    Senator Cotton. ``A Special Inspector General for Afghanistan 
Reconstruction (SIGAR) report from 2013 said that the Afghanistan 
Government has levied nearly a billion dollars in business taxes on 
contractors supporting United States efforts in Afghanistan in 
contradiction to agreements exempting them from these taxes. 
Contractors have reported that this remains a problem, including for 
past, wrongly issued, tax bills, and is impacting their ability to 
fulfill commitments to the United States in Afghanistan. Among the 
concerns they have raised is: the harassment of their employees, the 
Afghan Government's refusal to provide visas or necessary licenses, and 
the Afghan Government putting contractors on no-fly lists unless the 
contractors pay all or part of the sums in question.

    14. As most of these contracts are in support of Operation Resolute 
Support, what is being done to help contractors in addressing this 
issue and stop this ``shakedown'' of U.S. companies and which is also 
having a negative impact on their services there?
    General Campbell. [Deleted]
                               __________
            Questions Submitted by Senator Claire McCaskill
                 building and sustaining afghan forces
    Senator McCaskill. The US and NATO have been training the Afghan 
security forces (Afghan National Army and Afghan National Police) for 
over eight years and the forces are near their target end strength 
level of 352,000. I understand the Afghan security forces perform well 
when conducting deliberate, planned offensive operations, but often 
struggle in quick reaction responses and are often overmatched when 
attacked at static sites, such as checkpoints. They, like the Iraqi 
forces we also trained, are heavily reliant on their special forces to 
conduct clearing operations which is a typical conventional activity 
that should not require elite units.

    15. Are we building the forces Afghanistan needs, wants, and can 
sustain or are we building the forces the US and NATO want?
    General Campbell. As we continue to conduct our train, advise, and 
assist (TAA) mission, we are ever mindful of the progress Afghanistan 
has made in the last eight years. We should temper our comparison of 
Afghan National Defense and Security Force (ANDSF) with modern armies. 
Considering they began as an unorganized collection of militia and have 
developed many of the systems and processes of an advanced military in 
less than a decade, the progress ANDSF is actually quite substantial. 
Planning, force management, procurement, sustainment, systems fielding, 
and management of the ANDSF is primarily done by the ministries 
alongside US and Coalition advisors. The ANDSF are not executing our 
plan, we are advising them as they build their own.
                     us contractors in afghanistan
    Senator McCaskill. According to information compiled by the 
Congressional Research Service, as of June 2015, there were 
approximately 9,000 US troops in Afghanistan but almost 29,000 DOD 
contractors. While the total number of contractors is trending down 
(there were more than 51,000 contractors in Afghanistan in June 2014), 
we have now hit a point where we have three contractors for every one 
US servicemember in Afghanistan.

    16. How are you able to ensure these contractors are receiving the 
appropriate level of oversight?
    General Campbell. USFOR-A has both automated and manual systems in 
place to provide proper contractor oversight. The automated systems 
include the Synchronized Pre-deployment and Operational Tracker (SPOT) 
that track contractors as they move into, within, and out of 
Afghanistan. We have Contracting Officer Representatives (CORs) that 
work closely with contractors who monitor the day to day activities and 
levels of effort that each one performs. Larger contracts have multiple 
CORs assigned as well as Military subject matter experts who help 
monitor and track technical and service levels of performance.

    17. Senator McCaskill. We currently expect about 9,800 US 
servicemembers to remain in Afghanistan through most of 2016. If a 
decision is made to reduce our troop presence, do you expect to see a 
continued reduction in the number of contractors?
    General Campbell. Yes. Total contractor numbers will decline, 
however the ratio of contractors to service members may climb as the 
total number of service members declines to our enduring 5,500. 
Contractors will decline as part of the military reduction, but 
contract solutions will also be utilized to perform some essential 
support missions formerly performed by military personnel. With this, 
the overall ratio of contractors to service members is expected to rise 
from our current approximate level of three contractors to each service 
member.
                               __________
                               
                               
             Questions Submitted by Senator Jeanne Shaheen
                           counterpropaganda
    18. Senator McCaskill. What is the United States currently doing to 
support our Afghan partners to counter propaganda from terrorist groups 
such as the Taliban and ISIS? I understand it may be necessary to 
review your response in a classified setting.
    General Campbell. [Deleted]

                                 [all]
</pre></body></html>
